Report No. D-2009-062         March 25, 2009




        Internal Controls Over DoD Cash
           and Other Monetary Assets
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas
and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704




Acronyms and Abbreviations
COMA                  Cash and Other Monetary Assets
DFAS                  Defense Finance and Accounting Service
DO                    Disbursing Officer
DoD FMR               DoD Financial Management Regulation
DSSN                  Disbursing Station Symbol Number
EFT                   Electronic Fund Transfer
FASAB                 Federal Accounting Standards Advisory Board
FMFIA                 Federal Managers Financial Integrity Act
FBWT                  Fund Balance with Treasury
FMS                   Financial Management Service
GWAMP                 Governmentwide Accounting Modernization Project
OMB                   Office of Management and Budget
USD(C)/DoD CFO        Under Secretary of Defense (Comptroller)/DoD Chief Financial
                         Officer
SFFAS                 Statement of Federal Financial Accounting Standards
SOA                   Statement of Accountability
SOT                   Statement of Transactions
TFM                   Treasury Financial Manual
U.S.C.                United States Code
                                                    GENERAL
                                      DEPP,RTMENT OF DEFENSE
                                       400 ll~Rrl/1Y NJ-\'\/Y DRi\!E
                                .t;RLINGTO[\I, VIRGII\IIA 2220.2-4704



                                                                                    March 25,2009


MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/CHIEF
                 FINANCIAL OFFICER
               ASSISTANT SECRETARY OF THE ARMY (FINANCIAL
                 MANAGEMENT AND COMPTROLLER)
               NAVAL INSPECTOR GENERAL
               AUDITOR GENERAL, DEPARTMENT OF THE AIR FORCE
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING SERVICE


SUBJECT: Report on Internal Controls Over DoD Cash and Other Monetary Assets
         (Report No. D-2009-062)

We are providing this report for review and comment. This report is one in a series that
discusses internal controls over Cash and Other Monetary Assets. We considered comments
from the Under Secretary of Defense Comptroller/DoD Chief Financial Officer and the Defense
Finance and Accounting service when preparing the final report.

DoD Directive 7650.3 requires that all recommendations be resolved promptly. The Under
Secretary of Defense (Comptroller)/DoD Chief Financial Officer comments were responsive to
recommendations A.1.a.(1 )-(2)., A.1.b., B.1.a., B.1.c., B.1.d., C.1.b., D.l.a.(1 )-(2). and D.l.b.,
and were nonresponsive to recommendations A.1.c., B.1.b., B.1.e., and C.l.a.(l )-(5). Therefore,
we request additional comments on these recommendations. The Director, Defense Finance and
Accounting Service comments were responsive to recommendations A.2.a., B.2., and C.2., and
were nonresponsive to recommendations A.2.b. Therefore, we request additional comments on
recommendations. We request additional comments on aU of the recommendations by May 25,
2009.

If possible, please send management comments in electronic format (Adobe Acrobat file only) to
L\LLQRJJQ(gLdodigJJlil. Copies of management comments must contain the actual signature of
the authorizing official. We cannot accept the / Signed / symbol in place of the actual signature.
If you arrange to send classified comments electronically, they must be sent over the SECRET
Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 601-5868 (DSN 329-5868).



                                       l~vOv a~ /Yl~
                                       Patricia A. Marsh, CPA
                                       Assistant Inspector General
                                       Defense Business Operations
                    Report No. D-2009-062 (Project No. D2007-D000FP-0174.000)
                                          March 25, 2009

              Results in Brief: Internal Controls Over DoD
              Cash and Other Monetary Assets
What We Did                                           What We Recommend
Our overall audit objective was to assess the         We recommend that the Under Secretary of
internal controls over DoD Statements of              Defense (Comptroller)/DoD Chief Financial
Accountability (SOA) and the reporting of Cash        Officer (USD[C]/CFO):
and Other Monetary Assets (COMA) on the                    Charge a proper appropriation to obtain
DoD Agency-Wide financial statements.                         cash, or coordinate with the Office of
                                                              Management and Budget and the U.S.
What We Found                                                 Treasury to obtain a waiver or develop
Overall, DoD did not have effective controls                  an alternative process.
over the reporting of COMA. DoD disbursing                 Develop a policy for specific
officers do not charge an appropriation when                  circumstances that would allow cash
they obtain operating cash from the U.S.                      disbursements to be made to contractors
Treasury, as required by regulations. This has                in Iraq and other countries, instead of
been the DoD practice since the 1950s. As of                  another payment method.
September 30, 2007, the cash balance held
outside of the U.S. Treasury was $2.6 billion.             Revise the DoD FMR to require DFAS
As a result, DoD is increasing the risk of                    to identify and track the number and
augmenting its appropriations and causing                     dollar amounts of cash collections and
Antideficiency Act violations (finding A).                    disbursements it makes.
DoD disbursing officers continued to obtain                Revise the DoD FMR to specify which
large amounts of cash to use in their daily                   SOA line items should be reported as
operations. The persistent use of cash by                     COMA on the balance sheet.
disbursing officers perpetuated the significant       We recommend that the Director, DFAS direct
administrative costs of using and holding cash        that processes and standard operating
and increased the potential for loss of funds         procedures be revised as necessary to implement
(finding B).                                          the above recommendations.
In addition, Defense Finance and Accounting
Service (DFAS) did not identify and track the         Management Comments and
number and dollar amount of cash collections
and disbursements made by DoD disbursing              Our Responses
stations. As a result, DFAS was not compliant         The USD(C)/DoD CFO agreed with
with DoD Financial Management Regulation              14 recommendations, partially agreed with
(DoD FMR) provisions that require audit trails        2 recommendations, and disagreed with
to have sufficient detail to trace transactions       1 recommendation. However, some of the
from DFAS to their source. In addition, DFAS          actions taken or the proposed actions are
could not provide an audit universe of cash           nonresponsive. The recommendation the
collections and disbursements for internal            USD(C)/DoD CFO disagreed with is
reviews and independent external audits               nonresponsive. Therefore, we request
(finding C).                                          additional comments from the USD(C)/DoD
DFAS incorrectly posted SOA line items that           CFO.
were not COMA to the DoD Agency-Wide
Balance Sheet. As a result, the DoD Agency-           DFAS agreed with three recommendations and
Wide Consolidated Balance Sheet overstated            partially agreed with one recommendation.
COMA by $11.1 million as of September 30,             Therefore, we request additional comments
2007 (finding D).                                     from DFAS. Please see the recommendations
                                                      table on the back of this page.

                                                  i
               Report No. D-2009-062 (Project No. D2007-D000FP-0174.000)
                                     March 25, 2009
Recommendations Table
Management                       Recommendations               No additional Comments
                                 Requiring Comment             Required
Under Secretary of Defense       A.1.c., B.1.b., B.1.e., and   A.1.a.(1)-(2)., A.1.b., B.1.a.,
(Comptroller)/ DoD Chief         C.1.a.(1)-(5).                B.1.c., B.1.d., C.1.b
Financial Officer                                              D.1.a.(1)-(2)., and D.1.b.
Director, Defense Finance and    A.2.b.                        A.2.a., B.2., and C.2.
Accounting Service

Please provide comments by May 25, 2009.




                                            ii
Table of Contents

Results in Brief                                                          i

Introduction                                                              1

       Objectives                                                         1
       Background                                                         1
       Review of Internal Controls                                        3

Finding A. Obtaining Cash from the U.S. Treasury                          5

       Recommendations, Management Comments, and Our Response            11

Finding B. Use of Cash                                                   13

       Recommendations, Management Comments, and Our Response            15

Finding C. Identifying and Tracking Cash Disbursements and Collections   17

       Recommendations, Management Comments, and Our Response            20

Finding D. Reporting of Cash and Other Monetary Assets                   23

       Recommendations, Management Comments, and Our Response            25

Appendices

       A. Scope and Methodology                                          27
       B. Prior Coverage                                                 31
       C. Cash Management History                                        33
       D. DoD Process for Obtaining Cash from the U.S. Treasury          35
       E. Office of the Under Secretary of Defense (Comptroller)/Chief   41
           Financial Officer Memorandum
       F. Joint Contracting Command (Iraq/Afghanistan) Memorandum        43
       G. Non-COMA Statement of Accountability Line Items                45
       H. Glossary                                                       47

Management Comments

       A. Under Secretary of Defense Comments                            51
       B. Defense Finance and Accounting Service Comments                57
Introduction
Objectives
This audit is one in a series that addresses internal controls over Cash and Other
Monetary Assets. Our overall audit objective was to assess the internal controls over
DoD Statements of Accountability and the reporting of Cash and Other Monetary Assets
on the DoD Agency-Wide and Component financial statements. See Appendix A for a
discussion of the scope and methodology and Appendix B for prior coverage related to
the objectives. See Appendix H for a glossary of terms.

Background
Cash and Other Monetary Assets (COMA) is an asset account that represents a material
line item 1 on the September 30, 2007, DoD Agency-Wide Consolidated Balance Sheet.
The Federal Accounting Standards Advisory Board (FASAB) Statement of Federal
Financial Accounting Standards (SFFAS) No.1, “Accounting for Selected Assets and
Liabilities,” March 30, 1993, defines cash as: (a) coins, paper currency and readily
negotiable instruments, such as money orders, checks, and bank drafts on hand or in
transit for deposit; (b) amounts on demand deposit with banks or other financial
institutions; and (c) foreign currencies, which for accounting purposes should be
translated into U.S. dollars at the exchange rate on the financial statement date.

Cash is classified as either entity cash or nonentity cash, and these are reported separately
on Federal financial statements. Entity cash is the amount of cash that the reporting
entity holds and is authorized by law to spend. Nonentity cash is collected and held by
the reporting entity on behalf of another Federal entity or the U.S. Government, and these
funds are not available for use by the reporting entity. In some circumstances, the entity
deposits cash into its accounts in a fiduciary capacity for the U.S. Treasury or other
entities.

Restrictions are usually imposed on cash deposits by law, regulation, or agreement.
Nonentity cash is always restricted cash. Entity cash may be restricted for specific
purposes. Such cash may be in escrow or other special accounts. Financial reports
should disclose the reasons for and nature of restrictions.

Office of Management and Budget (OMB) Circular A-136, “Financial Reporting
Requirements,” June 29, 2007, defines other monetary assets as gold, special drawing
rights, and U.S. Reserves in the International Monetary Fund. The U.S. Treasury
primarily uses this category.

Cash Balance. DoD reported $15 billion for COMA on its DoD Agency-Wide
Consolidated Balance Sheet as of September 30, 2007. However, only $2.6 billion was
DoD COMA. The remaining $12.4 billion was Foreign Military Sales Trust Fund cash.
DoD COMA represents approximately .17 percent of the DoD Agency-Wide total assets.


1
 The American Institute of Certified Public Accountants states that the auditor’s consideration of
materiality is a matter of professional judgment and is influenced by the auditor’s perception of the needs
of users of the financial statements. In addition, materiality judgments are made in light of surrounding
circumstances and involve both quantitative and qualitative considerations. We have concluded that the
use of cash by DoD in its operations is material to the Office of Management and Budget, U.S. Treasury,
and Congress.


                                                      1
See Figure 1 below for a breakout of the approximate $2.6 billion of COMA within DoD.
(The pie chart does not include Foreign Military Sales Trust Fund COMA.)

                              DoD Cash and Other Monetary Assets
                           Air Force General    Other
                                 Fund        $157,089,591
                             $107,907,638        6%
           Navy General Fund
                                  4%
             $142,971,313
                 6%




                                                                            Army General Fund
                                                                              $2,183,050,834
                                                                                   84%
                                 Total DoD Agency Wide $2,591,019,376



                       Figure 1. DoD COMA as of September 30, 2007

Cash Balance Increase. Since FY 1998, the DoD COMA balance has increased by
$2,071,651,000, or approximately 400 percent. Most of this increase has occurred since
FY 2003 because of U.S. Military involvement in Afghanistan and Iraq. See Figure 2 for
the 10-year trend. (The bar graph does not include Foreign Military Sales Trust Fund
cash.)


                               DoD Cash and Other Monetary Assets
                  3,000,000


                  2,500,000


                  2,000,000
       Dollars
   in Thousands
                  1,500,000


                  1,000,000


                   500,000


                         0
                              1998   1999   2000   2001       2002   2003   2004   2005   2006 2007
                                                              Fiscal Year




                               Figure 2. DoD COMA 10-Year Trend


                                                          2
Cash Reporting. Disbursing officers (DOs) and agencies report their accountability and
transactions to the U.S. Treasury monthly on the following Financial Management
Service (FMS) forms:

              FMS 1219 Statement of Accountability (SOA), and
              FMS 1220 Statement of Transactions (SOT).

The SOA summarizes disbursement and collection activity for the month. In addition,
the SOA is used to determine the accountability of DOs for funds held outside the U.S.
Treasury, known as “cash on hand.” The SOT shows a detailed account classification of
the disbursements and collections processed in a disbursing officer’s account for a given
accounting period. Agencies must identify each disbursement or collection transaction
with the appropriate U.S. Treasury account symbol.

Fund account symbols are used for internal and external reporting purposes.
The fund account symbol indicates: (1) the department to which funds were
appropriated; (2) the fiscal years during which the appropriation is available for
obligation; and (3) the appropriation. The monthly SOA and SOT reflect each DO’s
monthly disbursements and collections. Treasury uses each agency’s reporting of
disbursements and collections to update its record of the agency’s Fund Balance with
Treasury account balance.

Cash Management. Cash management involves the practices and techniques designed
to accelerate and control collections, ensure prompt deposit of receipts, improve control
over disbursement methods, and eliminate idle cash balances. See Appendix C for more
information on the purpose and the history of cash management in the Federal
Government.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,”
January 4, 2006, requires DoD Components to establish a MIC program to review,
assess, and report on the effectiveness of internal controls in DoD. The MIC program
must identify and promptly correct ineffective internal controls and establish internal
controls, when warranted, for the following two distinct processes: the Federal Managers
Financial Integrity Act (FMFIA) overall process and the FMFIA financial reporting
process. DoD Instruction 5010.40 defines a material weakness as a reportable condition
that the head of a DoD Component determines to be significant enough to be reported to
the next higher level of management.

Scope of the Review of the Internal Controls. We reviewed the adequacy of the
internal controls over the DoD processes for obtaining cash from the U.S. Treasury,
making cash disbursements, identifying and tracking the number and amount of cash
disbursements and collections, and reporting COMA on the financial statements. We
reviewed management’s self-evaluation as it applied to those controls.

Adequacy of Internal Controls. We identified material management control weakness
at the USD(C)/DoD CFO as defined by DoD Instruction 5010.40. Specifically, we
identified the following material management control weaknesses.

        USD(C)/DoD CFO internal controls over the DoD processes and procedures for
         obtaining cash from the U.S. Treasury were not adequate to ensure that DoD
         charged an appropriation when it obtained cash from the U.S. Treasury


                                            3
         (finding A). Recommendation A, if implemented, will establish USD(C)/DOD
         CFO policy and improve the DoD process for obtaining cash from the
         U.S. Treasury. Recommendation A.2., if implemented, will establish procedures
         within DFAS to implement the new policy.

        USD(C)/DoD CFO internal controls over DoD use of cash in Iraq and other
         countries were not adequate to reduce administrative costs and the potential loss
         of funds (finding B). Recommendation B.1., if implemented, will provide a
         policy for determining when cash disbursements to contractors in Iraq and other
         countries are appropriate. Recommendation B.2., if implemented, will establish
         procedures within DFAS to implement the new policy.

        USD(C)/DoD CFO internal controls over identifying and tracking cash
         transactions did not ensure that cash transactions could be traced to their source
         documents and that an audit universe of cash transactions could be provided for
         internal reviews and independent audits (finding C). Recommendation C.1, if
         implemented, will establish USD(C)/DOD CFO policy and require DFAS to
         identify and track cash transactions. Recommendation C.2., if implemented, will
         establish procedures within DFAS to identify and track cash transactions.

        USD(C)/DoD CFO internal controls over reporting cash from SOA line items on
         the DoD Agency-Wide Consolidated Balance Sheet did not ensure that COMA
         was fairly presented on the Balance Sheet (finding D). Recommendation D.1, if
         implemented, will provide guidance for which SOA line items should be
         reported as COMA on the balance sheet.

We will send a copy of this report will be sent to the senior officials in charge of internal
controls for the USD(C)/DoD CFO and DFAS.

Adequacy of Management’s Self-Evaluation. USD(C)/DoD CFO officials did not
identify the internal controls identified above within its assessable units and, therefore,
did not identify or report the material management control weaknesses identified by the
audit.




                                              4
Finding A. Obtaining Cash from the U.S.
Treasury
DoD disbursing officers do not charge an appropriation when they obtain operating cash
from the U.S. Treasury, as required by regulations. This has been the DoD practice since
the 1950’s. As of September 30, 2007, the cash balance held outside of the U.S. Treasury
was $2.6 billion. This occurred because DoD has not established a process and
procedures to ensure that disbursing officials charge an appropriation when they obtain
cash from the U.S. Treasury. Also, U.S. Treasury guidance does not address cash
management in a contingency environment. Additionally, DoD does not have a current
exemption or waiver for the requirement to charge an appropriation when it obtains cash
from the U.S. Treasury. As a result, DoD is increasing the risk of augmenting its
appropriations and causing Antideficiency Act violations.

Background
DoD needs a ready supply of cash to support a wide variety of operational activities,
including:

              change funds,
              imprest funds,
              accommodation exchange (check cashing),
              purchases of goods and services,
              classified missions, and
              contingencies.

DoD is often required to do business in foreign countries that do not have the political,
financial, or communications infrastructure to support any payment mechanism other
than cash. Disbursing officials make payments in mission-critical or contingency
circumstances that are of such an unusual and compelling urgency that the DoD mission
would be seriously impaired unless they used cash.

Criteria
U.S. Constitution. Article I, Section 9, Clause 7 of the U.S. Constitution states, “No
Money shall be drawn from the Treasury, but in Consequence of Appropriations made by
law.”

United States Code. The United States Code (U.S.C.) Title 31, “Money and Finance,”
includes the following guidance.

       Section 1301 - Application. Section 1301(a), the “Purpose Statute,” states that
       appropriations must be applied only to the objects for which the appropriations
       were made except as otherwise provided by law.

       Section 3302 - Custodians of Money. Section 3302(b), the “Miscellaneous
       Receipts Statute,” states that an agent or official of the Government receiving
       money for the Government from any source must deposit the money in the
       Treasury as soon as practicable without deduction for any charge or claim.




                                            5
       Section 3342 - Check Cashing and Exchange Transactions. Section 3342
       states a disbursing official of the U.S. Government may:

                  cash and negotiate negotiable instruments payable in U.S. currency or
                   foreign currency;
                  exchange U.S. currency, coins, and negotiable instruments and foreign
                   currency, coins, and negotiable instruments; and
                  cash checks drawn on the Treasury to accommodate U.S. citizens in a
                   foreign country, but only if satisfactory banking facilities are not
                   available in the foreign country, and a U.S. citizen presents the check
                   for payment.

Government Accountability Office. The Principles of Federal Appropriation Law,
volume II, chapter 9, “Liability, and Relief of Accountable Officers,” February 2006,
states that a commitment or a reservation of funds is to be made at the time the imprest
fund cashier obtains cash. The commitment or reservation of funds is necessary to
protect against violating the Antideficiency Act.
U.S. Treasury Financial Management Service. The Treasury Financial Manual
(TFM), volume I, part 2, chapter 3400, “Accounting for and Reporting on Cash and
Investments Held Outside of the U.S. Treasury,” September 26, 2002, provides agencies
with the accounting and reporting policies and procedures for cash. Chapter 3400 also
includes guidance on cash held outside of the U.S. Treasury and the requirements for
accountable officers, who have responsibility for funds received, certified, disbursed, and
held in their custody.

Office of Management and Budget. OMB Circular No. A-123, "Management's
Responsibility for Internal Control," revised December 21, 2004, provides guidance to
improve the accountability and effectiveness of programs and operations by establishing,
assessing, correcting, and reporting on internal control.

Obtaining Cash from the U.S. Treasury
DoD disbursing officers do not charge an appropriation when they obtain operating cash
from the U.S. Treasury, as required by regulations. This has been the DoD practice since
the 1950’s. As of September 30, 2007, the cash balance held outside of the U.S. Treasury
was $2.6 billion.
DoD Process for Obtaining Cash. DOs must periodically obtain cash to replenish their
operating cash supply. A DO obtains cash by writing a U.S. Treasury check made out to
himself or herself (or an agent) and presenting it to a bank. DoD refers to this as an
“Exchange for Cash Check.” Although DO accountability increases by the amount of the
check, transactions are not charged to an appropriation. DOs are not agents of the U.S.
Treasury.

Eventually, the DO makes a cash payment or provides cash to an authorized agent or
official, who makes a cash payment for goods or services. After the cash payment is
made, receipts are provided, a voucher is prepared, the transaction is charged to a proper
appropriation, and it is reported on the SOA and SOT.

DOs may also receive cash from sources outside the Federal Government, including
foreign corporations and foreign governments. For example, a DO may accept “burden-
sharing” (cash) contributions from foreign governments for relocation and construction
costs.


                                             6
According to DoD representatives, the process used by DoD to obtain cash from the U.S.
Treasury has been in place for more than 50 years. They stated that this process probably
developed from the Joint Regulations issued by the Comptroller General and the U.S.
Treasury in the 1950s. The implementing authority for these Joint Regulations was the
“Budget and Accounting Procedures Act of 1950.” The effect of the Joint Regulations
was to shift the point at which money is drawn from the U.S. Treasury from the time the
DO obtains cash from the U.S. Treasury to the time the DO disburses the cash. While
these Joint Regulations may have provided a basis for the process followed by DoD
today, the authority granted by the Joint Regulations is not current, and there is no other
corresponding policy except for the TFM, which requires DoD to charge an appropriation
when it obtains cash from the U.S. Treasury.

See Appendix D for a detailed explanation of the process and the forms used by DoD to
obtain cash, to account for cash on accountability documents, and to report cash balances
to the U.S. Treasury.

Cash Amounts. DoD obtained and held approximately $2.6 billion and $2.3 billion in
cash without charging a Government appropriation as of September 30, 2007, and
September 30, 2006, respectively. During these 2 fiscal years, the quarterly cash
balances fluctuated between a high of $2.7 billion to a low of $1.9 billion. The dollar
amounts represent the total accountability (dollar amount of cash) of the Army, Navy,
Air Force, and the Corps of Engineers. The following table provides the dollar amount
by quarter for FY 2007 and FY 2006.

         Table 1. Dollar Amount of Cash Held Outside of the U.S. Treasury
                                   (in millions)

                      1st Quarter     2nd Quarter      3rd Quarter      4th Quarter
     Fiscal Year        Amount          Amount           Amount           Amount
    2007                  $2,448.4        $1,994.7         $2,689.2         $2,621.4
    2006                  $1,874.6        $1,943.2         $2,115.2         $2,274.0

The cash DoD obtains and holds from the U.S. Treasury is not charged to an
appropriation and is not assigned to any U.S. Treasury account symbol. The cash is only
reported on the DO SOA until it is time to prepare the quarterly or annual financial
statements. At that time, Defense Finance and Accounting Service (DFAS) creates a
journal voucher to record cash on the reporting entity’s balance sheet. However, the
journal voucher does not charge an appropriation or any U.S. Treasury account symbol.
For example, DFAS Indianapolis uses “9999,” an invalid U.S. Treasury account symbol,
to report Army cash. Because the journal voucher is only entered into a reporting system,
the data is not permanently held and a reversing entry is not needed.

We were unable to obtain the number and dollar amounts of cash disbursements and
collections made by DoD in FY 2007 and FY 2006. The DFAS centers do not identify
and track the number and dollar amounts of cash disbursements and collections made by
DoD. See finding C for more information.

Adequacy of the DoD Process and Procedures for
Obtaining Cash and U.S. Treasury Guidance
DoD has not established a process and procedures to ensure that disbursing officials
charge an appropriation when they obtain cash from the U.S. Treasury. U.S. Treasury


                                            7
guidance does not address cash management in a contingency environment.
Additionally, DoD does not have an exemption or waiver for the requirement to
charge an appropriation when it obtains cash from the U.S. Treasury.

Adequacy of the DoD Process and Procedures. As discussed above, DOs did not
charge an appropriation when they obtain operating cash from the U.S. Treasury. This
practice appears to contradict the following guidance.

              Article I, Section 9, Clause 7 of the U.S. Constitution states, “No Money
               shall be drawn from the Treasury, but in consequence of appropriations
               made by law.”

              Title 31, U.S.C. 1301(a), the “Purpose Statute,” states that appropriations
               must be applied only to the objects for which the appropriations were
               made except as otherwise provided by law.

              Title 31, U.S.C. 3302(b), the “Miscellaneous Receipts Statute,” states that
               an agent or official of the Government receiving money for the
               Government from any source must deposit the money in the Treasury as
               soon as practicable without deduction for any charge or claim.

              Principles of Federal Appropriation Law, volume II, chapter 9, states that
               a commitment or a reservation of funds must be made at the time the
               imprest fund obtains cash.

              TFM, volume I, part 2, chapter 3400, states that agencies must report cash
               using existing SOA line items and current budgetary accounts.

In summary, DoD neither charged an appropriation nor identified the purpose for the
cash.
Adequacy of U.S. Treasury Guidance. The TFM, volume I, part 2, chapter 3400,
requires DoD to charge an appropriation when it obtains cash from the U.S. Treasury.
Specifically, the TFM requires DoD to charge an appropriation and assign subclass “41”
to it. Assigning subclass 41 to the appropriation tells the U.S. Treasury that cash is being
held outside of the Treasury (for instance, cash held in the DO safe).

A typical charge would look like this: 41 21 8 2020 10,000. This means that cash is
being held outside of the Treasury (41), by the Army (21), with FY 2008 funds (8),
charged to the Army Operation and Maintenance appropriation account (2020) for
$10,000. When the DO disburses the funds, he or she reverses the above entry and
makes it again, except without using subclass 41. Reversing the entry tells Treasury that
this cash is no longer being held outside of Treasury, but was either deposited back to
Treasury or disbursed. Making the above entry again, without using subclass 41,
properly charges the Army appropriation (21 8 2020 10,000).

However, the TFM does not take into consideration the fact that a DO may be operating
in a contingency environment and needs cash to meet a wide variety of daily operational
requirements. DOs cannot charge an appropriation when they obtain cash from the
U.S. Treasury because the specific purpose of the funds is unknown at the time. Cash
needs are not always predictable, and the DO cannot always anticipate who will request
cash. Furthermore, in a contingency environment the U.S. Army has the unique
responsibility of being the primary source of cash for the other Military Services, other
Federal Agencies, nongovernmental organizations, and contractor support personnel.

                                             8
In addition, the TFM does not consider 31 U.S.C. 3342. Title 31 U.S.C 3342 permits
DoD to provide accommodation exchanges for the convenience of authorized personnel.
An accommodation exchange occurs when a DO exchanges U.S. dollars for a U.S.
Treasury check or U.S. dollar instrument (check cashing). In an accommodation
exchange, an appropriation is never charged.
Exemption or Waiver. DoD currently does not have an exemption or waiver for the
requirement to charge an appropriation when it obtains cash from the U.S. Treasury.
Seeking and obtaining an exemption or waiver would permit DoD to hold a certain
amount of cash without charging an appropriation.

DoD needs to find a way to charge a proper appropriation, obtain an exemption or waiver
to hold a certain amount of cash without charging an appropriation, or establish a new
U.S. Treasury account symbol to charge when cash is obtained from the U.S. Treasury.

Risk of Augmentation and Antideficiency Act Violations
When DoD does not charge an appropriation at the time cash is obtained from the
U.S. Treasury, it increases the risk of augmenting its appropriations and violating the
Antideficiency Act.

Augmentation. Augmentation is action that increases the effective amount of funds
available in an agency’s appropriation. An agency may not augment its appropriations
from outside sources without specific statutory authority. When Congress makes an
appropriation, it also is establishing an authorized program level. In other words, it is
telling the agency that it cannot operate beyond the level that it can finance under its
appropriation. Congress appropriates a specific amount of funding for a specific agency,
for a specific purpose, during a specific period. If an agency gets additional funding from
another source without specific statutory authority, it has more budget authority than
Congress said it could have for those purposes during that time.

When an agency operates beyond its appropriated funding level with funds derived from
some other source, the agency is circumventing Congress’ budget controls. The reason
Government agencies are not allowed to augment their appropriations is to keep them
from exceeding the amount Congress has budgeted for them.

A typical augmentation occurs when one appropriation is used to pay costs associated
with the purposes of another appropriation. This violates the “Purpose Statute.” For
example, if the Air Force were to buy air-to-air missiles using its “Procurement
Ammunition, Air Force” appropriation, instead of its more specific “Procurement,
Missiles, Air Force” appropriation, this would enable it to purchase a greater quantity of
missiles (some using the missile appropriation and some using the ammunition
appropriation) than Congress desired.

Antideficiency Act. Title 31 U.S.C. 1341(a)(1)(A), one of the statutes collectively
referred to as the, “Antideficiency Act,” states an officer or employee of the U.S.
Government may not make or authorize an expenditure or obligation exceeding the
amount available in an appropriation or fund for the expenditure or obligation. An
Antideficiency Act violation occurs when there is an over-obligation or over-expenditure
of an appropriation.




                                             9
When DoD does not charge an appropriation when obtaining cash from the U.S.
Treasury, it increases the risk of improperly augmenting its appropriations and causing
Antideficiency Act violations.

Material Weakness
OMB Circular A-123 defines a material weakness over the FMFIA overall process as any
reportable condition that the agency head determines to be significant enough to report
outside of the agency. OMB Circular A-123 defines a material weakness over the
FMFIA financial reporting process as a reportable condition, or combination of
reportable conditions, that results in more than a remote likelihood that a material
misstatement of the financial statements, or other significant financial reports, will not be
prevented or detected.

The process and procedures DoD uses to obtain cash from the U.S. Treasury do not
comply with the U.S. Treasury TFM. Specifically, DoD does not charge an appropriation
when it obtains cash from the U.S. Treasury. Thus, DoD had a material weakness in the
FMFIA overall process for COMA, and should report a material weakness in their
Annual Statement of Assurance and Annual Financial Report until it is corrected.

A misstatement occurred on the DoD Agency-Wide Consolidated Balance Sheet because
the DoD Fund Balance with Treasury (FBWT) account was overstated. The DoD
overstated its FBWT account because DoD did not charge an appropriation when it
obtained cash from the U.S. Treasury. The FBWT account was overstated by the amount
of cash being held by DoD outside of the U.S. Treasury. Thus, DoD had a material
weakness in the FMFIA financial reporting process for FBWT. Because DoD is already
reporting a material weakness for its FBWT account, it should add this problem to the list
of issues in the description of the issue section for FBWT in its Annual Statement of
Assurance.

Actions in Progress
The Under Secretary of Defense (Comptroller)/DoD Chief Financial Officer
(USD[C]/CFO) representatives have been working with U.S. Treasury representatives
since June 2003 to solve the problem of DOs not charging an appropriation when they
obtain cash from the U.S. Treasury. Meeting minutes from June 2003 show that DFAS
representatives were concerned that DoD cash was not charged to an appropriation and
was not charged to any U.S. Treasury account symbol. In addition, DFAS
representatives stated that the proper accounting of cash should be a management
priority.

DoD started trying to correct this issue because the U.S. Treasury is developing a new
central accounting system, the Governmentwide Accounting Modernization Project
(GWAMP), and GWAMP does not permit cash to be obtained without charging an
appropriation. In addition, the GWAMP eliminates the SOA and SOT, because it
requires the appropriation affected to be reported, along with the related cash,
check-issue, deposit, debit voucher, or interagency payment and collection transaction
information. Specifically, the new GWAMP system will require that the appropriation be
posted when a transaction occurs.




                                             10
Recommendations, Management Comments, and Our
Response
A.1. We recommend that the Office of the Under Secretary of Defense
(Comptroller)/Chief Financial Officer:

       a. Charge a proper appropriation, or coordinate with the Office of
       Management and Budget and the U.S. Treasury to:

               (1) Obtain a waiver to hold a certain amount of cash without
               charging an appropriation, or

               (2) Establish a new U.S. Treasury account symbol to charge when
               cash is obtained from the U.S. Treasury.

       b. Revise DoD Financial Management Regulation 7000.14, volume 5, to
       reflect the implementation of Recommendation A.1.a.(1)-(2).

       c. Report a material weakness (Overall Process) for Cash and Other
       Monetary Assets in its Annual Statement of Assurance and Annual Financial
       Report until it implements all the recommendations in this report.

Under Secretary of Defense (Comptroller)/DoD Chief Financial
Officer Comments
The Acting USD(C)/DoD CFO agreed with recommendation A.1.a. The Acting
USD(C)/DoD CFO, with the OMB and U.S. Treasury, is establishing a special control
account to report and account for cash to support DoD and other Federal Agencies
involved in ongoing contingency operations. In addition, the Acting USD(C)/DoD CFO
stated he is in the process of developing specific policy, criteria, and metric to ensure the
account is used only as intended. Expected completion date is June 2009.

The Acting USD(C)/DoD CFO agreed with recommendation A.1.b. DoD
FMR, volume 5, will be updated to reflect the implementation of
Recommendations A.1.a.(1)-(2). Expected completion date is June 2009.

The Acting USD(C)/DoD CFO disagreed with recommendation A.1.c. The Acting
USD(C)/DoD CFO stated that Government Auditing Standards defines a material
weakness as a deficiency, or a combination of significant deficiencies, that results in
more than a remote likelihood that a material misstatement of the financial statements
will not be prevented or detected. DoD COMA only represents .17 percent of the DoD
Agency-Wide total assets. Therefore, it does not meet this criterion and should not be
considered a material weakness. Acting USD(C)/DoD CFO emphasized that his office
will track all recommendations until implemented. Expected completion date is June
2009.

Our Response
The Acting USD(C)/DoD CFO comments to recommendations A.1.a.(1)-(2). and A.1.b.
are responsive. The Acting USD(C)/DoD CFO comments to recommendations A.1.c. are
nonresponsive. We agree that DoD COMA only represents .17 percent of the DoD
Agency-Wide total assets as of September 30, 2007. However, we recommended that the
Acting USD(C)/DoD CFO report a material weakness for COMA in the FMFIA Overall


                                             11
Process, and not a material weakness for COMA in the FMFIA Financial Reporting.
Furthermore, we recommended that a material weakness be reported for COMA in the
USD(C)/DoD CFO Annual Statement of Assurance and Annual Financial Report until
the USD(C)/DoD CFO implements all the recommendations in this report. The $2.6
billion cash balance is a significant amount, and COMA is an inherently high-risk
account. Additionally, the DoD practice of not charging an appropriation when it obtains
cash from the U.S. Treasury is a significant noncompliance with the Treasury Financial
Manual and other regulations. Therefore, we believe a material weakness should be
reported for the DoD COMA account. We request that the Acting USD(C)/DoD CFO
reconsider his position.

A.2. We recommend that the Director, Defense Finance and Accounting Service:

      a. Require the DFAS Centers to develop or revise processes and formal
standard operating procedures to implement Recommendation A.1.a.(1)-(2).

     b. Report a material weakness (Overall Process) for Cash and Other
Monetary Assets in its Annual Statement of Assurance until it implements all the
recommendations in this report.

Defense Finance and Accounting Service Comments
The Director, Standards and Compliance agreed with recommendation A.2.a. DFAS will
support the USD(C)/DoD CFO as he plans for Government-wide accounting. DFAS will
develop standard operating procedures when USD(C)/DoD CFO policy is developed.
Expected completion date is October 1, 2009.

The Director, Standards and Compliance partially agreed with recommendation A.2.b.
The Director stated that DFAS is operating under the spirit of United States Code,
Title 31 and the DoD FMR. Thus, this issue should not be listed as a material weakness.
However, DFAS will ensure that this finding is addressed in accordance with
OMB A-123 and DoD Instruction 5010.40 guidance to determine the proper reporting in
the DFAS Annual Statement of Assurance. Expected completion date is July 1, 2009.

Our Response
The Director, Standards and Compliance comments to recommendations A.2.a. are
responsive. However, the Director’s comments to recommendations A.2.b. are not
responsive. We recommended that a material weakness be reported for COMA in the
DFAS Annual Statement of Assurance until it implements all the recommendations in
this report. The DoD practice of not charging an appropriation when it obtains cash from
the U.S. Treasury is a significant noncompliance with the U.S. Treasury TFM and other
regulations. Therefore, we believe a material weakness should be reported for the DoD
COMA account. We request that the Director, Standards and Compliance reconsider his
position on recommendation A.2.b.




                                           12
Finding B. Use of Cash
DoD disbursing officers continued to obtain large amounts of cash to use in their daily
operations. For example, DoD used large amounts of cash in Iraq and other countries to
make cash payments to contractors. This occurred because DoD has not developed a
comprehensive policy for determining when cash disbursements to contractors are
appropriate instead of another payment method. The persistent use of cash by disbursing
officers perpetuated the significant administrative costs of using and holding cash and
increased the potential for losses of funds.

Criteria
Code of Federal Regulations. Part 208, “Management of Federal Agency
Disbursements,” requires that all Federal payments be made by electronic fund transfer
(EFT) except as specified in section 208.4, “Waivers.” A waiver could be granted when
the political, financial, or communications infrastructure in a foreign country does not
support payment by EFT. A waiver could also be granted when an agency’s need for
goods and services is of such unusual and compelling urgency that the Government
would be seriously injured unless payment were made by a method other than EFT.

DoD Financial Management Regulation. Volume 5, chapter 3, “Keeping and
Safeguarding Public Funds,” October 2006, provides guidance on cash operations, cash
review requirements, safeguarding funds and related documents, and advancing funds to
agents and friendly foreign nations. Volume 5, chapter 6, “Irregularities in Disbursing
Officer Accounts,” January 2004, provides information on irregularities (also known as
losses of funds). Chapter 6 provides information on categorizing losses of funds,
accounting for losses of funds, classifying losses of funds as minor or major, and
investigating losses of funds.

Use of Cash in Iraq and Other Countries
DoD disbursing officers continued to obtain large amounts of cash to use in their daily
operations. For example, DoD continued to use large amounts of cash in Iraq and
other countries to make cash payments to contractors. For example, in FY 2007 and
FY 2006 Army Disbursing Station Symbol Number (DSSN) 8548 sent $1.4 billion and
$1.1 billion, respectively, to Iraq and other countries.

DFAS could not give us the number and dollar amount of cash disbursements and
collections that DoD made in FY 2007 and FY 2006. The DFAS centers do not identify
and track the number and dollar amount of DoD cash disbursements and collections. See
finding C for more information.

DoD Policy on the Use of Cash
DoD has not developed a comprehensive policy for determining when cash
disbursements to contractors are appropriate. Specifically, DoD does not have a
comprehensive policy for addressing when disbursing officials should make cash
disbursements to contractors in Iraq and other countries instead of using another payment
method.

Sometimes there are valid reasons for making cash disbursements. For example, DoD is
often required to do business in foreign countries that do not have the political, financial,
or communications infrastructure to support any other payment mechanism other than
cash. In addition, disbursing officials make payments in mission-critical or contingency


                                             13
circumstances that are of such an unusual and compelling urgency that the DoD mission
would be seriously impaired unless they used cash.

Recent Policy Memoranda. DoD has recently issued policy memoranda encouraging
the use of other payment methods instead of cash.
           On February 12, 2008, the USD(C)/DoD CFO issued a memorandum that
            encourages the use of International Treasury Services (ITS.gov), a Federal
            Government comprehensive payment and collection system. See Appendix E
            for copy of the memorandum.2
           On December 18, 2007, the USD(C)/DoD CFO issued a memorandum that
            states that the Government Purchase Card is the preferred method of payment
            for Official Representation Fund events. 2

           On September 25, 2007, the Joint Contracting Command (Iraq/Afghanistan)
            issued a memorandum for its phased plan to implement contract payments by
            EFT. The memorandum stated that this EFT initiative will promote a modern
            banking sector in Iraq by leveraging the roughly $150 million per month in
            contracts that the Joint Contracting Command awards to host-nation vendors.
            See Appendix F for copy of the memorandum.

           On July 10, 2007, the USD(C)/DoD CFO issued a memorandum requiring
            disbursing officers to confirm that their cash on hand does not exceed the
            absolute minimum operational requirements. The memorandum required
            disbursing officials to consider alternatives to using cash, such as credit and
            debit cards. In addition, the memorandum required disbursing officials to
            report any cash reductions made in response to the memorandum.

However, the USD(C)/DoD CFO should develop a comprehensive policy for when a
disbursing officer is allowed to make cash disbursements to contractors in Iraq and other
countries, instead of using another payment method. The USD(C)/DoD CFO should
coordinate this with DoD acquisition personnel. The USD(C)/DoD CFO should notify
all affected organizations and personnel of the new policy, incorporate the new policy
into the DoD Financial Management Regulation (DoD FMR), and ensure that the new
policy is followed.

Administrative Costs and Losses of Funds
The persistent use of cash by DOs perpetuated the significant administrative costs of
using and holding cash and increased the potential for losses of funds. These costs often
take the form of time spent by disbursing office personnel to obtain, store, secure,
process, disburse, and account for cash. In addition, DOs have a constant risk of loss of
funds when cash is used. Large amounts of cash and other negotiable instruments
increase the possibility of theft, fraud, and mismanagement. Additionally, holding cash
creates unnecessary interest expense. Administrative costs and the risk of losses of funds
can be significantly reduced by using other payment methods, such as EFT.



2
 The USD(C)/DOD CFO issued this memorandum in response to the DoD OIG audit, “Internal Controls
Over Army General Fund Cash and Other Monetary Assets Held Outside of the Continental United States,”
(Project No. D2007-D000FP-0122).


                                                 14
Loss of Funds. According to DoD FMR, volume 5, chapter 6, losses of funds are
categorized as physical losses of funds; illegal, incorrect, or improper payments; or
overages of funds. From FY 2000 through FY 2007, DoD reported 723 loss-of-funds
cases valued at $11.4 million. Of these 723 loss-of-funds cases:

           289 cases valued at $6,811,761 were granted relief from liability,
           419 cases valued at $1,889,056 were denied relief from liability, and
           15 cases valued at $2,661,244 were pending.

See the table below for the number and dollar amount of loss-of-funds cases by fiscal
year.

                             Table 2. Loss-of-Funds Cases

  Fiscal Year        Number                                                     Amount
   FY 2007              66                                                 $1,395,439.47
   FY 2006              92                                                    565,571.76
   FY 2005             149                                                  3,952,796.09
   FY 2004             149                                                  2,554,897.64
   FY 2003              75                                                    829,533.15
   FY 2002              78                                                    393,719.70
   FY 2001              59                                                  1,644,513.90
   FY 2000              55                                                     25,589.25
     Total             723                                                $11,362,060.96

Recommendations, Management Comments, and Our
Response
B.1. We recommend that the Office of the Under Secretary of Defense
(Comptroller)/Chief Financial Officer:

       a. Develop a policy for determining when cash disbursements can be made to
       contractors in Iraq and other countries instead of another payment method,
       such as check or electronic fund transfer.

       b. Coordinate the policy with the Office of the Secretary of Defense
       (Acquisition) personnel.

       c. Provide all affected DoD organizations and personnel with the new policy
       by issuing a memorandum and guidance as necessary.

       d. Incorporate the policy into DoD Regulation 7000.14-R, DoD Financial
       Management Regulation, volume 5, “Disbursing Policy and Procedures,
       September 2007.

       e. Ensure that the new policy is followed by conducting periodic inspections
       of disbursing stations.




                                            15
Under Secretary of Defense (Comptroller)/DoD Chief Financial
Officer Comments
The Acting USD(C)/DoD CFO agreed with recommendation B.1.a-d. The USD(C)/DoD
CFO issued a memorandum on February 12, 2008, which reiterated that the Treasury
International Services (ITS.gov) should be used to the maximum extent possible.
In addition, DoD FMR volume 5, chapter 12, “Foreign Disbursing,” was updated in
May 2008, to state that when a foreign currency payment needs to be made,
the preferred method of payment is ITS.gov. Headquarters, Joint Contracting
Command-Iraq/Afghanistan issued a memorandum on September 27, 2007,
establishing guidance as to when cash payments can be made in Iraq and Afghanistan.
The actions were completed May 2008.

The Acting USD(C)/DoD CFO agreed with recommendation B.1.e. The Acting
USD(C)/DoD CFO stated that DoD FMR, volume 5, chapter 3, requires that cash on
hand be kept to the absolute minimum levels needed for operational requirements. In
addition, a policy memorandum was issued requiring that all affected DoD organizations
confirm that cash on hand did not exceed absolute minimum operational requirements.
The Acting USD(C)/DoD CFO stated he will continue to monitor the use of cash and
seek other non-cash methods of payments. The action is completed.

Our Response
The Acting USD(C)/DoD CFO comments to recommendations B.1.a., B.1.c., and B.1.d.
are responsive. The Acting USD(C)/DoD CFO comments to recommendations B.1.b.
and B.1.e. are nonresponsive. The Acting USD(C)/DoD CFO did not coordinate the
policy with the acquisition personnel and did not require periodic inspections. He needs
to coordinate with acquisition personnel to ensure that they require the use of other
payment methods instead of cash for contract payments. In addition, he needs to ensure
the new policy is adhered to by conducting periodic inspections. We request that the
Acting USD(C)/DoD CFO reconsider his position.

B.2. We recommend that the Director, Defense Finance and Accounting Service
require the DFAS Centers to develop or revise processes and formal standard
operating procedures to implement Recommendations B.1.a-e.
Defense Finance and Accounting Service Comments
The Director, Standards and Compliance agreed with recommendation B.2. DFAS will
develop and implement standard operating procedures when the Acting USD(C)/DoD
CFO policy is developed.

Our Response
The Director, Standards and Compliance comments to recommendation B.2. are
responsive.




                                           16
Finding C. Identifying and Tracking Cash
Disbursements and Collections
DFAS did not identify and track the number and dollar amount of cash disbursements and
collections made by DoD disbursing stations. This occurred because the DoD FMR
guidance was inadequate. As a result, DFAS was not in compliance with other DoD FMR
provisions that require the maintenance of audit trails in sufficient detail to trace
transactions from DFAS to their originating source. In addition, DFAS could not provide
an audit universe of cash disbursements and collections for internal and independent
external audits.

Criteria
DoD FMR, volume 6A, chapter 2, “Financial Reports Roles and Responsibilities,” March
2002, defines the roles and responsibilities of DFAS and DFAS Component customers.
The DoD FMR, volume 5, chapter 11, “Disbursements,” September 2007, discusses the
different types of disbursements, preparing certified disbursement vouchers, processing
disbursement vouchers, and making disbursements from deposit funds and budget
clearing accounts.

Identifying and Tracking Cash Disbursements and
Collections
DFAS did not identify and track the number and dollar amount of cash disbursements and
collections made by DoD disbursing stations.

Army Cash Disbursements and Collections. DFAS Indianapolis did not identify and
track the number and dollar amount of cash disbursements and collections made by Army
disbursing stations. As of September 30, 2007, DFAS Indianapolis had approximately
21 DSSNs, using five different disbursing systems, reporting to them. DFAS
Indianapolis also has one dormant DSSN, three closed DSSNs, two DSSNs in settlement,
and three disbursing stations that use a manual system. The disbursing systems and the
approximate number of DFAS Indianapolis DSSNs using them are as follows:
                 Deployable Disbursing System - 12
                 Standard Finance System Redesign, Subsystem 1 - 4
                 Mechanization of Contract Administration Services - 3
                 Corp of Engineers Financial Management System - 1
                 Classified Disbursing System - 1

DFAS Indianapolis does not have a systematic process and procedures to identify and
track the number of cash transactions made by Army DSSNs. We attempted to obtain the
number and dollar amount of cash disbursements and collections made by the 12 Army
DSSNs using the Deployable Disbursing System in FY 2006, but we were unable to
because DFAS gave us incomplete data. Specifically, four DSSNs did not provide data,
and three DSSNs provided incomplete data. Five DSSNs provided complete data (we did
not test the accuracy of their data).

Navy Cash Disbursements and Collections. DFAS Cleveland cannot identify and track
the number and dollar amount of cash disbursements and collections because of systems
limitations.



                                          17
Air Force Cash Disbursements and Collections. DFAS Denver uses the Central
Disbursing System to record Air Force disbursements and collections, including those
made in cash. However, deputy DOs enter activity for cash disbursed or collected by
paying agents as a total. Therefore, DFAS Denver Central Disbursing System can only
produce reports of total cash disbursed and collected. The report does not list each
individual cash transaction. Furthermore, DFAS Denver records individual voucher
transactions in its accounting systems but does not specifically identify them as cash
transactions. To provide a complete universe of cash transactions for audit purposes,
DFAS Denver would be required to compile cash transactions by querying its accounting
systems and performing manual processes. Thus, DFAS Denver cannot provide a
universe of cash transactions in a timely and cost-effective manner. Specifically, DFAS
Denver cannot identify and track the volume of cash transactions made during FY 2007
in a timely manner.

Adequacy of the DoD Financial Management Regulation
One of the reasons DFAS does not have sufficient audit trails or a complete audit
universe of cash disbursements and collections is because the DoD FMR is inadequate.
Specifically, DoD FMR volume 6A, chapter 2 is not adequate because it does not require
DFAS and DFAS Component customers to identify and track the number and dollar
amounts of cash disbursements and collections made at their disbursing offices.
According to chapter 2, DFAS must establish internal controls to ensure that data
provided by each DoD Component customer is recorded accurately and processed into
the finance and accounting systems in a timely manner. DFAS must maintain or create
controls to ensure that:

              All transactions that are received are processed correctly. These controls
               should include tools to identify and track the number, type, and dollar
               amount of transactions that are received by DFAS. Such controls also
               apply to all transactions generated by DFAS.

              All transactions generated (whether electronic or hard copy) are validated
               to ensure accuracy and each transaction is identified correctly in terms of
               type, dollar amount, and other data.

However, chapter 2 does not require DFAS and DFAS Component customers to identify
and track the disbursement and collection methods. For example, a DoD disbursing
official can make a disbursement by cash, check, EFT, or interagency payment.
Chapter 2 should require DFAS and DFAS customers to identify and track the number
and dollar amount of cash disbursements and collections made at their disbursing offices.

DoD FMR volume 5, chapter 11 requires DFAS to annotate a certified disbursement
voucher as to whether the disbursement was made by cash, check, EFT or as an
interagency payment. However, chapter 11 does not require DFAS and DFAS
Component customers to systematically identify and track the number and dollar amount
of cash disbursements and collections. For example, chapter 11 does not require DFAS
to identify and track cash disbursements and collections by DFAS center, disbursing
station, month and fiscal year, number, and dollar amount. In addition, chapter 11 does
not define the roles and responsibilities for identifying and tracking the number and
dollar amount of cash disbursements and collections.




                                            18
Audit Trails and Audit Universe for Cash Disbursements
and Collections
DFAS was not in compliance with the DoD FMR, which requires that audit trails exist in
sufficient detail to trace transactions from DFAS to their source. In addition, DFAS
could not provide an audit universe of cash disbursements and collections for internal
reviews and independent external audits.

Audit Trails. DoD FMR volume 6A, chapter 2 states that DoD Components must ensure
that audit trails are maintained in sufficient detail to permit tracing of transactions with a
unique identity from their sources to their transmission to the DFAS. This is necessary to
demonstrate the accuracy, completeness, and timeliness of a transaction, as well as to
provide documentary support, if required, for all data generated by the DoD Component
and submitted to DFAS for recording in the accounting systems and use in financial
reports. In addition, DFAS must ensure that a complete and documented audit trail is
maintained to support the reports it prepares. A complete audit trail ensures that:

              the numbers, types, and dollar amounts of transactions transmitted by the
               DoD Component customers are received and tracked by DFAS to ensure
               that they are properly processed and recorded, and

              the numbers, types, and dollar amounts of transactions received from the
               DoD Component customers, as well as those generated by DFAS, are
               processed timely and entered accurately into the finance and accounting
               systems.

However, if DoD Component customers and DFAS do not identify and track cash
disbursements and collections, these specific accounting transactions cannot be traced
from the source document to financial reports (such as the balance sheet), and from
financial reports back to the source document. Specifically, DFAS accountants and both
internal and external auditors need an audit trail from source documents to the balance
sheet cash line and from the balance sheet cash line to source documents. This is
necessary to demonstrate the accuracy and completeness of cash transactions and provide
documentary support for the cash transactions.

Audit Universe. DFAS needs to be able to provide the number and dollar amounts of
cash disbursements and collections before the Army, Navy, and Air Force will be able to
assert that their cash lines are ready for an independent external audit. Independent
external auditors need an audit universe in order to be able to perform statistical
sampling. Statistical sampling involves the selection of individual test items from the
universe and projecting the sample results over the universe. Therefore, if DFAS does
not have an audit universe, the Army, Navy, and Air Force cannot assert that their cash
lines are ready for an independent external audit.




                                             19
Recommendations, Management Comments, and Our
Response
C.1. We recommend that the Office of the Under Secretary of Defense Comptroller,
Chief Financial Officer revise the DoD Financial Management Regulation 7000.14,
volume 6A, chapter 2, “Financial Reports Roles and Responsibilities,” to:

        (a) Require the Defense Finance and Accounting Service to be able to
identify and track cash collection and disbursement vouchers by the following types
of information:

              (1) Defense Finance and Accounting Service center;

              (2) Disbursing Station Symbol Number;

              (3) Month and fiscal year;

              (4) Number of cash collections and disbursements;

              (5) Dollar amount of cash disbursements and collections; and

       (b) Archive the information in accordance with DoD record retention
requirements.

Under Secretary of Defense (Comptroller)/DoD Chief Financial
Officer Comments
The Acting USD(C)/DoD CFO agreed with recommendation C.1.a.(1)-(5). He stated his
current systems do not capture and maintain the information recommended. Therefore,
the USD(C)/DoD CFO and DFAS will not be able to implement these recommendations
until the U.S. Treasury Governmentwide Accounting Modernization Project (GWAMP)
for non-U.S. Treasury disbursing operations is deployed. As processes and systems
permit, the Acting USD(C)/DoD CFO will revise the DoD FMR. Completion date is
subject to the GWAMP implementation schedule.

The Acting USD(C)/DoD CFO agreed with recommendation C.1.b. He stated that DoD
FMR, volume 5, Chapter 21, “Disbursing Office Records,” provides authoritative
guidance on retaining disbursing office records. This information will be hyperlinked to
volume 6A, chapter 2, “Financial Reports Roles and Responsibilities,” and volume 1,
chapter 9, “Financial Records Retention.” Expected completion date is March 2009.

Our Response
The Acting USD(C)/DoD CFO comments to recommendations C.1.a.(1)-(5) are not
responsive. The Acting USD(C)/DoD CFO needs to revise the DoD FMR as soon as
possible. Requiring DFAS to identify and track cash collection and disbursement
vouchers now will require DFAS to develop processes and systems to meet these
requirements. Because GWAMP is a Treasury system, DoD needs to develop its own
processes and systems for identifying and tracking cash collection and disbursement
vouchers. We request that the Acting USD(C)/DoD CFO reconsider his position..

The Acting USD(C)/DoD CFO comments to recommendation C.1.b. are responsive.




                                           20
C.2. We recommend that the Director, Defense Finance and Accounting Service
require the DFAS Centers to develop or revise processes and formal standard
operating procedures to implement Recommendations C.1.a.(1)-(5) and C.1.b.

DFAS Management Comments
The Director, Standards and Compliance agreed with recommendation C.2. He stated
that DFAS supports the USD(C)/DoD CFO staff in their efforts to implement GWAMP
which is an essential component of DoD strategy in executing recommendations
C.1.a.(1)-(5) and C.1.b. DFAS will implement standard operating procedures when the
Acting USD(C)/DoD CFO policy is developed.

Our Response
The Director, Standards and Compliance comments to recommendation C.2. are
responsive.




                                         21
22
Finding D. Reporting of Cash and Other
Monetary Assets
DFAS incorrectly posted SOA line items that were not COMA to the DoD Agency-Wide
Balance Sheet. Specifically, the balance sheet included line items such as losses of funds
and receivables as COMA. This occurred because the DoD FMR did not define which
SOA line items should be categorized as COMA on the balance sheet. As a result, the
DoD Agency-Wide Consolidated Balance Sheet overstated COMA by $11.1 million, as
of September 30, 2007.

Journal Voucher Process
DFAS accountants prepare a journal voucher every quarter and at fiscal year-end to
report COMA on the DoD Agency-Wide Balance Sheet. The journal vouchers are
supported by SOAs that the DFAS centers receive from their DOs. As previously
discussed, DOs use the SOA to summarize their accountability for funds held outside of
the U.S. Treasury (cash on hand). The “Total Disbursing Officer Accountability” line on
the SOA includes items such as cash on hand, cash in limited depository accounts, cash
with Deputy DOs and paying agents, losses of funds, and receivables. See Appendix D
for the specific line item titles and a sample SOA.

Definition of Cash
Federal Accounting Standards Advisory Board. SFFAS No.1 states cash consists of:
(a) coins, paper currency and readily negotiable instruments, such as money orders,
checks, and bank drafts on hand or in transit for deposit; 3 (b) amounts on demand deposit
with banks or other financial institutions; and (c) foreign currencies, which for
accounting purposes should be translated into U.S. dollars at the exchange rate on the
financial statement date.

Office of Management and Budget. OMB Circular A-136, “Financial Reporting
Requirements,” June 2007, uses the same definition for cash as FASAB. In addition,
OMB Circular A-136 defines other monetary assets as gold, special drawing rights, and
U.S. reserves in the International Monetary Fund. The U.S. Treasury primarily uses this
category. OMB Circular A-136 also states that the components of cash must be disclosed
in Note 4, “Cash and Other Monetary Assets,” to the balance sheet.

DoD Financial Management Regulation. Volume 6b, chapter 4, “Balance Sheet,”
January 2006, uses the same definition for cash as FASAB and OMB. Chapter 4 also
provides specific instructions for preparing each line item of the DoD Agency-Wide
Balance Sheet, including the cash line. DoD FMR, volume 5, chapter 19, “Disbursing
Officer Accountability Reports,” August 1999, provides the SOA line items and their
definitions.

Statement of Accountability COMA Categories
DFAS incorrectly posted SOA line items that were not COMA to the DoD Agency-Wide
Balance Sheet. Specifically, DFAS incorrectly included the following nine SOA line



3
  For a check to be a negotiable instrument, the check must be delivered to a bank or to a third party (holder
in due course).


                                                     23
items in reporting the cash account balance on the DoD Agency-Wide Consolidated
Balance Sheet:

              Line 6.6 - Advances to Contractors
              Line 6.9 - Other Cash Items
              Line 7.1 - Deferred Charges - Vouchered Items
              Line 7.2 - Receivables - Check Overdrafts
              Line 7.3 - Losses of Funds
              Line 7.4 - Receivables - Dishonored Checks
              Line 9.2 - Receivables - Checks Overdrafts
              Line 9.3 - Losses of Funds
              Line 9.4 - Other Accountability

We determined that these nine SOA line items did not meet the definition of COMA.
We based our determination on the definitions provided in SFFAS No. 1 and DoD FMR
volume 5, chapter 19, “Disbursing Officer Accountability Reports,” August 1999. For
example, the DoD FMR states that line 7.3, “Loss of Funds,” and line 9.3, “DFAS - Loss
of Funds,” represent physical losses of cash. These funds are not in the possession of the
DoD and should not be recorded on the balance sheet. In addition, the DoD FMR states
that line 7.4 “Receivables-Dishonored Checks” is used to record any dishonored checks
that are to be retained in DO accountability. This money is not on hand and should not
be included in COMA. (See Appendix G for the nine SOA line item definitions.)

Adequacy of Criteria for Reporting COMA on the
Balance Sheet
The DoD FMR does not define which SOA line items should be reported as COMA on
the balance sheet. The DoD FMR, volume 6B, chapter 4 states that the DO
accountability should be used to report COMA on the balance sheet. In addition, chapter
4 states that the components of COMA should be disclosed in Note 7 to the balance
sheet, and any cash restrictions should be disclosed. However, not all the line items on
the DO SOA meet the definition of COMA, and chapter 4 does not define which SOA
line items should be reported as COMA on the balance sheet. In addition, chapter 4 does
not provide guidance for where non-COMA line items should be reported on the financial
statements.

Reporting of COMA on the Balance Sheet
As of September 30, 2007, the DoD Agency-Wide Balance Sheet overstated COMA by
$11.1 million. Table 3 shows the Army, Navy, and Air Force SOA line items and their
corresponding amounts that do not meet the SFFAS No. 1 definition of COMA and cause
an overstatement of the DoD Agency-Wide Balance Sheet cash line.




                                            24
           Table 3. Calculation of the Overstatement of the DoD Agency-Wide
                            Cash and Other Monetary Assets
                                        Army          Navy        Air Force
                                       General       General      General          DoD
Line No.            Line Title          Fund          Fund          Fund        Agency-Wide
  6.6       Advances to Contractors            $0     $228,679             $0       $228,679
  6.9       Other Cash Items            1,475,348      (11,988)             0      1,463,360
  7.1       Deferred Charges -            345,032      981,654      6,371,988      7,698,674
            Vouchered Items
  7.2       Receivables - Checks                 0        4,728         1,200          5,928
            Overdrafts
  7.3       Losses of Funds              127,537       128,057          2,006        257,600
  7.4       Receivables - Dishonored      52,463        50,504          7,651        110,618
            Checks
  9.2       Receivables - Check              383          1,974            0           2,357
            Overdrafts
  9.3       Losses of Funds               252,343     1,002,504        34,395      1,289,242
  9.4       Other Accountability           21,931        34,106             0         56,037
            Total                      $2,275,037    $2,420,218    $6,417,240    $11,112,495

The USD(C)/DOD CFO and DFAS need to improve their internal controls over the
reporting of cash on the DoD Agency-Wide Balance Sheet.

Recommendations, Management Comments, and Our
Response
This report is the last in a series regarding the financial reporting of DoD Cash and
Other Monetary Assets. Assets that are incorrectly classified as Cash and Other
Monetary Assets affect not only the reporting Component’s balance sheet, but the
DoD Agency-Wide Balance Sheet. The following recommendations apply to this
report, as well as to the other reports issued in this series.

D.1 We recommend that the Office of the Under Secretary of Defense Comptroller,
Chief Financial Officer:

      a. Revise the DoD Financial Management Regulation 7000.14, volume 6B,
chapter 4, “Balance Sheet,” January 2006, by:

                 (1) Defining which Statement of Accountability line items should be
                 reported as Cash and Other Monetary Assets on the balance sheet.

                 (2) Providing guidance on how to correctly report line items that are
                 not Cash and Other Monetary Assets on the balance sheet.

      b. Require DFAS Centers to develop or revise DFAS standard operating
procedures to implement Recommendations D.1.a.(1)-(2).

Under Secretary of Defense (Comptroller)/DoD Chief Financial
Officer Management Comments
The Acting USD(C)/DoD CFO partially agreed with recommendation D.1.a.(1)-(2).
The USD(C)/DoD CFO revised FY 2008, 2nd Quarter, Attachment 205-“Disbursing
Officer’s Accountability Report,” to identify which SOA line item should be reported


                                             25
as COMA and non-COMA on the Balance Sheet. The USD(C)/DoD CFO will update
the DoD FMR, volume 6B, chapter 4, “Balance Sheet,” by March 2009. However, the
Acting USD(C)/DoD CFO disagreed that Line 6.9 “Other Cash Items” is incorrectly
reported and should be accounted for as COMA on the Balance Sheet because SFFAS
No.1 defines cash as, “coins, paper currency, and readily negotiable instruments, such
as money orders checks, and bank drafts on hand or in transit for deposit.” The
Acting USD(C)/DoD CFO stated that Line 6.9 “Other Cash Items” are U.S. Treasury
exchange-for-cash checks prepared in advance and waiting to be picked up by a
deputy, agent, or cashier.

The Acting USD(C)/DoD CFO agreed with recommendation D.1.b. The Acting
USD(C)/DoD CFO will issue a memorandum directing DFAS to develop or revise
DFAS standards operating procedures. Expected completion date is December 2008.

Our Response
The Acting USD(C)/DoD CFO comments to recommendations D.1.a.(1)-(2). and D.1.b
are responsive.




                                           26
Appendix A. Scope and Methodology
We conducted this performance audit in accordance with generally accepted government
auditing standards.* Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives. We performed this audit from April 23, 2007 through October 10, 2008.

We reviewed DoD policy, processes, and procedures for obtaining cash from the
U.S. Treasury. We also reviewed the internal controls over the reporting of COMA on
the DoD Agency-Wide and Component financial statements. We reviewed applicable
guidance from the following:

                   U.S. Constitution,
                   31 U.S.C., “Money and Finance,”
                   Code of Federal Regulations,
                   Federal Accounting Standards Advisory Board Statements of Federal
                       Financial Accounting Standards No. 1,
                   Government Accountability Office Principles of Federal Appropriation
                       Law,
                   Office of Management and Budget circulars,
                   Treasury Financial Manual, and
                   DoD Financial Management Regulation.

We obtained our understanding by reviewing applicable criteria, reviewing prior audit
coverage, and reviewing the DFAS Indianapolis process action document for cash. We
also interviewed USD(C)/DoD CFO, DFAS Arlington, DFAS Indianapolis, and U.S.
Treasury personnel and attended briefings by these organizations. We then determined
whether the DoD process and procedures for obtaining cash met applicable criteria. We
obtained Army, Navy, Air Force, Corps of Engineers, and Office of Secretary of Defense
accountability balances (cash on hand) to determine the amount of cash held outside of
the U.S. Treasury as of September 30, 2007, for the potential augmentation and
Antideficiency Act violation amounts.

We reviewed the USD(C)/DoD CFO and the Joint Contracting Command
(Iraq/Afghanistan) policy for making cash payments to contractors in Iraq and other
countries. We obtained our understanding by reviewing applicable criteria and
USD(C)/DoD CFO and Joint Contracting Command (Iraq/Afghanistan) memorandums,
and by interviewing USD(C)/DoD CFO and DFAS Arlington personnel.

We reviewed the USD(C)/DoD CFO policy for identifying and tracking the number and
dollar amount of cash disbursements and collections made by DoD disbursing stations.
We obtained our understanding by reviewing the DoD FMR and interviewing
USD(C)/DoD CFO and DFAS personnel.




* We used the GAO, Government Auditing Standards, June 2003 Revision. The July 2007 Revision is
effective for audits started after January 1, 2008.


                                                27
We reviewed the USD(C)/DoD CFO policy for reporting cash on the balance sheet. We
obtained our understanding by reviewing applicable criteria and interviewing
USD(C)/DoD CFO and DFAS Indianapolis personnel. We identified nine non-COMA
SOA line items. We then obtained the dollar amount of these nine non-COMA SOA line
items by totaling what the Army, Navy, and Air Force reported on their consolidated
SOA for them.

Use of Computer-Processed Data
For finding A, we used computer-processed data obtained from the Central Accounting
and Reporting System and the Defense Department Reporting System. This computer-
processed data was used to determine the Army, Navy, Air Force, Corps of Engineers,
and Office of Secretary of Defense accountability (cash on hand) by quarter for FY 2007
and FY 2006.

For FY 2007, we obtained computer-processed data from the Central Accounting and
Reporting System. Specifically, we relied on Army, Navy, Air Force, Corps of
Engineers, and Office of Secretary of Defense SOAs to determine their accountability
(cash on hand) as of September 30, 2007. We did not perform a formal reliability
assessment of the computer-processed financial data because the Central Accounting and
Reporting System is operated and maintained by the U.S. Treasury and is therefore
outside the scope of this project. However, we compared the Army consolidated SOA
that was provided by the Central Accounting and Reporting System to the Army
consolidated SOA that was reported to the U.S. Treasury by DFAS Indianapolis. We did
not find any errors that would preclude the use of the computer-processed data to meet
the audit objectives or that would change the conclusions in the report.

For FY 2006, we obtained computer-processed data from the Defense Department
Reporting System. Specifically, we relied on Army, Navy, Air Force, Corps of
Engineers, and Office of Secretary of Defense cash balances as of September 30, 2006.
We did not perform a formal reliability assessment of the computer-processed financial
data because we are not evaluating the accuracy of the cash balances. However, we
compared these reporting Components’ cash balances to the Central Accounting and
Reporting System SOAs (cash on hand). We did not find errors that would preclude the
use of the computer-processed data to meet the audit objectives or that would change the
conclusions in the report.

For finding D, we used computer-processed data obtained from numerous DFAS and
Military Department finance and accounting systems. This computer-processed data was
used to obtain the Army, Navy, Air Force, Corps of Engineers, and Office of Secretary of
Defense consolidated SOA dollar amounts by line item. We relied on this information to
calculate the DoD overstatement of cash by SOA line item. We did not perform a formal
reliability assessment of the computer-processed financial data because we are not
determining the accuracy of the overstatement of cash by SOA line item. We are only
showing that noncash SOA line items affect the accuracy of DoD Agency-Wide COMA.
However, we compared the Army SOA that was provided by the U.S. Treasury Central
Accounting and Reporting System to the Army consolidated SOA that was reported to
the U.S. Treasury by DFAS Indianapolis. We did not find errors that would preclude the
use of the computer-processed data to meet the audit objectives or that would change the
conclusions in the report




                                           28
Use of Technical Assistance
The DoD Inspector General Office of the General Counsel reviewed and provided
comments on finding A. We did not use any other technical assistance to perform this
audit.

Government Accountability Office High-Risk Area
The Government Accountability Office has identified several high-risk areas in DoD.
This report provides coverage of the Financial Management high-risk area. GAO first
designated financial management as high risk in 1995, and it remains so today. The
GAO acknowledges that DoD leadership continues to take positive steps towards
improving financial operations but states that "tangible evidence of improvement remains
limited." GAO considered DoD Financial Management a high risk because the DoD
continuing substantial financial management weaknesses adversely affect its ability to
produce auditable financial information, and more importantly, to provide timely and
reliable information for use in making informed decisions. DoD continues to face
pervasive financial and related business management and system deficiencies that
adversely affect its ability to:

                 control costs;
                 ensure basic accountability;
                 anticipate future costs and claims on the budget;
                 measure performance;
                 maintain funds control;
                 prevent and detect fraud, waste and abuse; and
                 address pressing management issues.




                                           29
30
Appendix B. Prior Coverage
During the last 5 years, the Department of Defense Inspector General (DoD IG), the U.S.
Army Audit Agency (AAA), the Navy Audit Services (NAS), the Air Force Audit
Agency (AFAA) and the Special Inspector General for Iraq Reconstruction (SIGIR) have
issued twelve reports that discuss cash issues. Unrestricted DoD IG reports can be
accessed over the Internet at: www.dodig.osd.mil/audit/reports. Unrestricted AAA
reports can be accessed at www.aaa.army.mil/reports.htm. Unrestricted Navy reports can
be accessed at www.hq.navy.mil/navalaudit. Unrestricted AFAA reports can be accessed
at www.afaa.hq.af.mil/afck/plansreports/reports.shtml. Unrestricted Special Inspector
General for Iraq Reconstruction (SIGIR) reports can be accessed at
www.sigir.mil/reports/audit.aspx.

DoD Inspector General
DoD IG Report No. D-2005-087, “Departmental Expenditure Reporting at Defense
Finance and Accounting Service Indianapolis,” June 27, 2005

DoD IG Report No. D-2007-028, “Controls Over Army Cash and Other Monetary
Assets,” November 24, 2006

DoD IG Report No. D-2007-018, “Independent Auditor’s Report on the Fiscal Year 2006
Army General Fund Financial Statements,” November 8, 2006

Army Audit Agency
AAA Report No. A-2005-0104-ALW, “Disbursing Station Expenditure Operations -
DoD Disbursing Station Number 5570,” February 14, 2005

AAA Report No. A-2005-0206-FFG, “Validation of the Statement of Accountability,
Attestation of Disbursing Station Symbol Number 8551 - 336th Finance Command,
Camp Arifjan, Kuwait,” June 29, 2005

AAA Report No. A-2006-0186-ALR, “Follow-up Audit of Disbursing Station
Expenditure Operations DoD Disbursing Station 5570,” August 22, 2006

Navy Audit Service
NAS Report No. N2003-0062, “Internal Controls at Navy Disbursing Activities,” July
23, 2003

NAS Report No. N2006-0047, “Cash Accountability of Department of the Navy
Disbursing Officers for Hurricane Katrina Relief Funds,” September 22, 2006

Air Force Audit Agency
AFAA Report No. F2003-0003-FB4000, “Nonappropriated Fund Cash Controls,”
December 30, 2002

AFAA Report No. F2006-0006-FD3000, “Central Command Air Forces Deployed
Locations Cash Management,” August 3, 2006




                                          31
Special Inspector General for Iraq Reconstruction
SIGIR Report No. 04-009, “Coalition Provisional Authority Comptroller Cash
Management Controls Over the Development Fund for Iraq,” July 28, 2004

SIGIR Report No. 05-006, “Control of Cash Provided to South-Central Iraq,” April 30,
2005




                                          32
Appendix C. Cash Management History
The U.S. Department of Treasury Financial Management Service provides the following
information in its Cash Management Made Easy, April 2002 guidebook. The purpose of
the guidebook is to provide a high-level overview of the Federal Government cash
management tools and assist agency cash managers in improving the management of
Government finances.

Purpose of Cash Management. Cash management is the stewardship or proper use of
an entity's cash resources. It serves as the means to keep an organization functioning by
making the best use of cash resources of the organization. The function of cash
management at the U.S. Treasury is threefold:

1. To eliminate idle cash balances. Every dollar held as cash rather than used to increase
revenues or decrease expenditures represents a lost opportunity. Funds that are not
needed to cover expected transactions can be used to buy back outstanding debt (and stop
a flow of funds out of the Treasury for interest payments) or can be invested to generate a
flow of funds into the Treasury's account. Minimizing idle cash balances requires
accurate information about expected receipts and likely disbursements.

2. To deposit collections in a timely manner. Having funds in hand is better than having
accounts receivable. The cash is easier to convert immediately into value or goods.
A receivable, an item to be converted in the future, often is subject to a transaction delay
or a depreciation of value. Once funds are due to the Government, they should be
converted to cash in hand immediately and deposited in the Treasury’s account as soon as
possible.

3. To properly time disbursements. Some payments must be made on a specified or legal
date, such as Social Security payments. For such payments, there is no cash management
decision. For other payments, such as vendor payments, discretion in timing is possible.
Government vendors face the same cash management needs as the Government. They
want to accelerate collections. One way vendors can do this is to offer discount terms for
timely payment for goods sold.

In 1981, President Ronald Reagan, OMB, and the President's Private Sector Survey on
Cost Control said that the Federal Government could save a great deal of money by
managing Federal cash as carefully as businesses manage their cash. Essentially, most
Federal agencies concentrated on operating their programs and ignored the time value of
money. The President's Management Improvement Program took aim at reforming
Federal financial management by making one of its top priorities the cessation of the
needless loss of interest on cash flows.

In 1981-82, a portion of the President's Management Improvement Program, Reform 88,
was developed as a comprehensive program to improve, consolidate, and streamline the
management systems of the Federal Government by a target date of 1988. Reform 88 put
new life into the management of Federal cash. Each Federal agency was required to
monitor its own cash flows, selecting the best tools for speeding collections to the
Treasury and timing disbursements to vendors, grantees, and other payment recipients.

Before 1982, the U.S. Government made 30 percent of its payments too late and 45
percent too early, resulting in unnecessary late charges and lost interest earnings.
Congress passed the Prompt Payment Act of 1982 (and its amendment in 1988) requiring
Federal agencies to make payments on time, to pay interest when payments are late, and


                                            33
to take discounts only when payments are made on or before the discount date. It also
provides a formula for determining if a discount is cost-effective. OMB wrote the
regulations to implement the Prompt Payment Act, which provides for timely payment,
better relations with contractors, improved competition for Government business and
reduced costs to the Government.
Once the necessary legislation and regulations were in place to improve Federal agency
management of payments, the Government turned its focus on collections. Congress
passed the Deficit Reduction Act of 1984. A section of the act, referred to generally as
the Collection and Deposit Legislation, moved agencies closer to the goal of
institutionalizing cash management in the Federal Government. It legislated cash
management for collections and deposits analogous to the directives given to Federal
agencies about paying their bills on time in the Prompt Payment Act of 1982. The
Collection and Deposit Legislation mandated that the Treasury would hold Federal
agencies responsible for their collection and deposit practices. Federal agencies must use
EFT, lockboxes, and automatic withdrawal of funds wherever feasible and in accordance
with Treasury regulations.
The Collection and Deposit Legislation requires the Financial Management Service to
conduct periodic cash management reviews of Federal agency financial operations.
These reviews examine and analyze agency management of the following programs:
collections and deposits, disbursements, inventories, imprest funds, and other cash held
outside the Treasury. The Federal agency and Financial Management Service must agree
on recommendations and plans for improvement. The Cash Management Improvement
Act was enacted in 1990 to improve the transfer of Federal funds between the Federal
Government and the States. The statutory purpose of Cash Management Improvement
Act is to: (1) ensure efficiency, (2) provide effectiveness, and (3) ensure equity.

The National Performance Review began in 1993 when President Bill Clinton announced
a 6-month review of the Federal Government. The goal was to identify problems and
offer solutions and ideas for savings. The report was divided into four sections:
(1) Cutting Red Tape, (2) Putting Customers First, (3) Empowering Employees to Get
Results, and (4) Cutting Back to Basics. One of the three steps to accomplish the last
section, Cutting Back to Basics, is to collect more through imposing or increasing user
fees where pricing makes economic sense, and by collecting what the Government is
owed in delinquent debt or fraudulent overpayment of benefits. Essentially, the
Government must find better, more efficient, and more effective ways to pay for its
programs and activities.

On April 26, 1996, Congress passed the Debt Collection Improvement Act of 1996.
A major part of this Act began the EFT Program. The EFT Program requires Federal
agencies to disburse payments via electronic funds transfer, with few exceptions. The
Treasury published regulations to provide guidance to Federal agencies. Agencies began
enrolling payment recipients for electronic payments by collecting payment recipients’
bank account information and enhancing their systems to provide various electronic
payment alternatives. The cooperative efforts of Federal agencies, the private sector,
Office of Management and Budget, and the Financial Management Service have spawned
an impressive list of improvements since the mid-1980s and generated billions of dollars
in interest savings.




                                           34
Appendix D. DoD Process for Obtaining
Cash from the U.S. Treasury
A DO obtains cash by writing a U.S. Treasury check out to cash or to himself or herself.
The bullets below describe the DoD process for obtaining and reporting cash to the U.S.
Treasury.

              If a DO writes a U.S Treasury check made out to cash or made out to
               himself or herself for $100,000, the DO’s accountability increases by
               $100,000. The DO records the negotiated check in Line 2.1, “Checks
               Issued on U.S. Treasury,” and Line 6.2, “Cash on Hand and in Transit to
               Treasury.” The DO accountability is reflected in Line 5.0, “Total
               Accountability Close of Period,” Line 8.0, “Total of My Accountability,”
               and Line 11.0, “Total Disbursing Officer Accountability.” Because no
               appropriation was charged, the DO would not submit an SOT to the
               U.S. Treasury for month 1. The DO would only submit an SOA for month
               1. The DO carries this accountability on their SF 1219 until the requestor
               of cash provides receipts and the appropriation to be charged. See Figure
               D.1.

              When the DO provides an agent $100,000 in cash, the DO prepares
               DD Form 1081, “Statement of Agent Officer’s Account.” In addition, the
               DO decreases Line 6.2, “Cash on Hand and In Transit to Treasury,” by
               $100,000 and increases Line 6.5 “Cash In Custody of Government
               Cashiers,” by $100,000. Because no appropriation was charged, the DO
               would not submit an SOT to the U.S. Treasury for month 2. The DO
               would only submit his SOA for month 2. See Figure D.2.

              DO accountability is decreased when a voucher is prepared, certified,
               approved, and submitted. If a voucher is submitted for $40,000, the DO
               accountability is decreased by $40,000 and the DO accountability would
               become $60,000. Specifically, the DO increases Line 4.1, “Net
               Disbursements,” by $40,000 and decreases Line 6.5 “Cash In Custody of
               Government Cashiers,” by $40,000. The DO’s new accountability is
               reflected in Line 5.0, “Total Accountability Close of Period,” Line 8.0,
               “Total of My Accountability,” and Line 11.0, “Total Disbursing Officer
               Accountability. The voucher information would be reported in the SOT
               for month 3, and would be submitted to the U.S Treasury along with the
               SOA for month 3. See Figures D.3 and D.4.




                                           35
                                SF 1219 STATEMENT OF ACCOUNTABILITY
       PART A - TRANSACTIONS DURING PERIOD AFFECTING ACCOUNTABILITY

1.0            TOTAL ACCOUNTABILITY BEGINNING OF PERIOD                                        0.00
2.0           INCREASES IN ACCOUNTABILITY
2.1            CHECKS ISSUED ON U.S. TREASURY                               100,000.00
       2.11    CHECKS ISSUED/ADJUSTMENTS-TFS FORM 5206                            0.00
       2.12    CHECKS ISSUED/ADJUSTMENTS-215 PAYMENT VOUCHERS                     0.00
2.3            OTHER TRANSACTIONS                                                 0.00
       2.34    DISCREPANCIES IN D.O. ACCOUNTS – CREDITS                           0.00
       2.36    PAYMENTS BY ANOTHER D.O.                                           0.00
       2.37    TRANSFERS FROM OTHER DISBURSING OFFICERS                           0.00
2.8            IPAC PAYMENTS AND COLLECTIONS                                      0.00
2.9                                                  TOTAL INCREASE IN ACCOUNTABILITY    100,000.00
3.0                                                                        SUBTOTAL      100,000.00
4.0           DECREASES IN ACCOUNTABILITY
4.1            NET DISBURSEMENTS                                                  0.00
4.2            DEPOSITS PRESENTED OR MAILED TO BANK                               0.00
4.3            OTHER TRANSACTIONS                                                 0.00
       4.34    DISCREPANCIES IN D.O. ACCOUNTS – DEBITS                            0.00
       4.36    PAYMENTS FOR ANOTHER D.O.                                          0.00
       4.37    TRANSFERS TO OTHER DISBURSING OFFICERS                             0.00
4.9                                                TOTAL DECREASES IN ACCOUNTABILITY           0.00

5.0                                            TOTAL ACCOUNTABILITY CLOSE OF PERIOD      100,000.00

       PART B - ANALYSIS OF INCUMBENT OFFICER'S ACCOUNTABILITY
6.1             CASH ON DEPOSIT IN DESIGNATED DEPOSITARY                                       0.00
6.2             CASH ON HAND AND IN TRANSIT TO TREASURY                                  100,000.00
6.3             CASH - UNDEPOSITED COLLECTIONS                                                 0.00
6.4             CUSTODY OR CONTINGENCY CASH                                                    0.00
6.5             CASH IN CUSTODY OF GOVERNMENT CASHIERS                                         0.00
6.6             ADVANCES TO CONTRACTORS                                                        0.00
6.7             CASH IN TRANSIT                                                                0.00
6.8             PAYROLL CASH                                                                   0.00
6.9             OTHER CASH ITEMS                                                               0.00
7.1             DEFERRED CHARGES -VOUCHERED ITEMS                                              0.00
7.2             RECEIVABLES - CHECK OVERDRAFTS                                                 0.00
7.3             LOSSES OF FUNDS                                                                0.00
7.4             RECEIVABLES - DISHONORED CHECKS                                                0.00
7.5             ADVANCES                                                                       0.00
8.0                                                      TOTAL OF MY ACCOUNTABILITY      100,000.00

       PART C - PREDECESSOR OFFICER'S ACCOUNTABILITY
9.2             RECEIVABLES- CHECK OVERDRAFTS                                                  0.00
9.3             LOSSES OF FUNDS                                                                0.00
9.4             OTHER ACCOUNTABILITY                                                           0.00
10.0                                    TOTAL PREDECESSOR OFFICER'S ACCOUNTABILITY             0.00
11.0                                        TOTAL DISBURSING OFFICER ACCOUNTABILITY      100,000.00

                 Figure D.1. Statement of Accountability – Month 1




                                                36
                                SF 1219 STATEMENT OF ACCOUNTABILITY
       PART A - TRANSACTIONS DURING PERIOD AFFECTING ACCOUNTABILITY

1.0            TOTAL ACCOUNTABILITY BEGINNING OF PERIOD                                 100,000.00
2.0           INCREASES IN ACCOUNTABILITY
2.1            CHECKS ISSUED ON U.S. TREASURY                                    0.00
       2.11    CHECKS ISSUED/ADJUSTMENTS-TFS FORM 5206                           0.00
       2.12    CHECKS ISSUED/ADJUSTMENTS-215 PAYMENT VOUCHERS                    0.00
2.3            OTHER TRANSACTIONS                                                0.00
       2.34    DISCREPANCIES IN D.O. ACCOUNTS – CREDITS                          0.00
       2.36    PAYMENTS BY ANOTHER D.O.                                          0.00
       2.37    TRANSFERS FROM OTHER DISBURSING OFFICERS                          0.00
2.8            IPAC PAYMENTS AND COLLECTIONS                                     0.00
2.9                                                  TOTAL INCREASE IN ACCOUNTABILITY         0.00
3.0                                                                        SUBTOTAL     100,000.00
4.0           DECREASES IN ACCOUNTABILITY
4.1            NET DISBURSEMENTS                                                 0.00
4.2            DEPOSITS PRESENTED OR MAILED TO BANK                              0.00
4.3            OTHER TRANSACTIONS                                                0.00
       4.34    DISCREPANCIES IN D.O. ACCOUNTS – DEBITS                           0.00
       4.36    PAYMENTS FOR ANOTHER D.O.                                         0.00
       4.37    TRANSFERS TO OTHER DISBURSING OFFICERS                            0.00
4.9                                                TOTAL DECREASES IN ACCOUNTABILITY          0.00

5.0                                            TOTAL ACCOUNTABILITY CLOSE OF PERIOD     100,000.00

       PART B - ANALYSIS OF INCUMBENT OFFICER'S ACCOUNTABILITY
6.1             CASH ON DEPOSIT IN DESIGNATED DEPOSITARY                                      0.00
6.2             CASH ON HAND AND IN TRANSIT TO TREASURY                                       0.00
6.3             CASH - UNDEPOSITED COLLECTIONS                                                0.00
6.4             CUSTODY OR CONTINGENCY CASH                                                   0.00
6.5             CASH IN CUSTODY OF GOVERNMENT CASHIERS                                  100,000.00
6.6             ADVANCES TO CONTRACTORS                                                       0.00
6.7             CASH IN TRANSIT                                                               0.00
6.8             PAYROLL CASH                                                                  0.00
6.9             OTHER CASH ITEMS                                                              0.00
7.1             DEFERRED CHARGES -VOUCHERED ITEMS                                             0.00
7.2             RECEIVABLES - CHECK OVERDRAFTS                                                0.00
7.3             LOSSES OF FUNDS                                                               0.00
7.4             RECEIVABLES - DISHONORED CHECKS                                               0.00
7.5             ADVANCES                                                                      0.00
8.0                                                      TOTAL OF MY ACCOUNTABILITY     100,000.00

       PART C - PREDECESSOR OFFICER'S ACCOUNTABILITY
9.2             RECEIVABLES- CHECK OVERDRAFTS                                                 0.00
9.3             LOSSES OF FUNDS                                                               0.00
9.4             OTHER ACCOUNTABILITY                                                          0.00
10.0                                    TOTAL PREDECESSOR OFFICER'S ACCOUNTABILITY            0.00
11.0                                        TOTAL DISBURSING OFFICER ACCOUNTABILITY     100,000.00

                   Figure D.2. Statement of Accountability – Month 2




                                                  37
                                SF 1219 STATEMENT OF ACCOUNTABILITY
       PART A - TRANSACTIONS DURING PERIOD AFFECTING ACCOUNTABILITY

1.0            TOTAL ACCOUNTABILITY BEGINNING OF PERIOD                                  100,000.00
2.0           INCREASES IN ACCOUNTABILITY
2.1            CHECKS ISSUED ON U.S. TREASURY                                     0.00
       2.11    CHECKS ISSUED/ADJUSTMENTS-TFS FORM 5206                            0.00
       2.12    CHECKS ISSUED/ADJUSTMENTS-215 PAYMENT VOUCHERS                     0.00
2.3            OTHER TRANSACTIONS                                                 0.00
       2.34    DISCREPANCIES IN D.O. ACCOUNTS – CREDITS                           0.00
       2.36    PAYMENTS BY ANOTHER D.O.                                           0.00
       2.37    TRANSFERS FROM OTHER DISBURSING OFFICERS                           0.00
2.8            IPAC PAYMENTS AND COLLECTIONS                                      0.00
2.9                                                  TOTAL INCREASE IN ACCOUNTABILITY          0.00
3.0                                                                        SUBTOTAL      100,000.00
4.0           DECREASES IN ACCOUNTABILITY
4.1            NET DISBURSEMENTS                                             40,000.00
4.2            DEPOSITS PRESENTED OR MAILED TO BANK                               0.00
4.3            OTHER TRANSACTIONS                                                 0.00
       4.34    DISCREPANCIES IN D.O. ACCOUNTS – DEBITS                            0.00
       4.36    PAYMENTS FOR ANOTHER D.O.                                          0.00
       4.37    TRANSFERS TO OTHER DISBURSING OFFICERS                             0.00
4.9                                                TOTAL DECREASES IN ACCOUNTABILITY      40,000.00

5.0                                            TOTAL ACCOUNTABILITY CLOSE OF PERIOD       60,000.00

       PART B - ANALYSIS OF INCUMBENT OFFICER'S ACCOUNTABILITY
6.1             CASH ON DEPOSIT IN DESIGNATED DEPOSITARY                                       0.00
6.2             CASH ON HAND AND IN TRANSIT TO TREASURY                                        0.00
6.3             CASH - UNDEPOSITED COLLECTIONS                                                 0.00
6.4             CUSTODY OR CONTINGENCY CASH                                                    0.00
6.5             CASH IN CUSTODY OF GOVERNMENT CASHIERS                                    60,000.00
6.6             ADVANCES TO CONTRACTORS                                                        0.00
6.7             CASH IN TRANSIT                                                                0.00
6.8             PAYROLL CASH                                                                   0.00
6.9             OTHER CASH ITEMS                                                               0.00
7.1             DEFERRED CHARGES -VOUCHERED ITEMS                                              0.00
7.2             RECEIVABLES - CHECK OVERDRAFTS                                                 0.00
7.3             LOSSES OF FUNDS                                                                0.00
7.4             RECEIVABLES - DISHONORED CHECKS                                                0.00
7.5             ADVANCES                                                                       0.00
8.0                                                      TOTAL OF MY ACCOUNTABILITY       60,000.00

       PART C - PREDECESSOR OFFICER'S ACCOUNTABILITY
9.2             RECEIVABLES- CHECK OVERDRAFTS                                                  0.00
9.3             LOSSES OF FUNDS                                                                0.00
9.4             OTHER ACCOUNTABILITY                                                           0.00
10.0                                    TOTAL PREDECESSOR OFFICER'S ACCOUNTABILITY             0.00
11.0                                        TOTAL DISBURSING OFFICER ACCOUNTABILITY       60,000.00
                 Figure D.3. Statement of Accountability – Month 3




                                                38
                                          Statement of Transactions
                           According to Appropriations, Funds and Receipt Accounts
                                  In Support of Statement of Accountability
      1. OF (Name of Disbursing Officer)                        2. Department Code                3. Station or Agency Number
                                                                        2100
                    4. Location                                                    5. Accounting Period


Appropriation, Fund               Receipts                        Reimbursements                          Disbursements
or Receipt Symbol                                                                                         (Net of refunds)
and Fiscal Year a.      Description          b.               Description            c.             Description          d.
21 - 2020 - 06                                    0.00                                    0.00    Cash Payment                40,000.00
                                                  0.00                                    0.00                                     0.00
                                                  0.00                                    0.00                                     0.00
                                                  0.00                                    0.00                                     0.00
                       Totals                     0.00                                    0.00                                40,000.00
                                                         Net Disbursements (Line 4.1)                                         40,000.00
                          Figure D.4. Statement of Transactions – Month 3




                                                                   39
40
Appendix E. Office of the Under Secretary
Defense (Comptroller)/Chief Financial Officer
Memorandum




                      41
42
Appendix F. Joint Contracting Command
(Iraq/Afghanistan) Memorandum




                   43
44
Appendix G. Non-COMA Statement of
            Accountability Line Items
Line Item Number   Statement of Accountability Line Item and Definition
        6.6        Advances to Contractors. Used to record cash advanced to
                   contractors under advance pool agreements.
       6.9         Other Cash Items. Used for exchange-for-cash checks prepared
                   in advance and pre-positioned checks awaiting pickup by a
                   Deputy DO, disbursing agent, or cashiers.
       7.1         Deferred Charges-Vouchered Items. Used to record any paid
                   voucher that has not been recorded in the accounting system.
       7.2         Receivables-Check Overdrafts. Used for check-issue overdraft
                   increases and for any disbursements or collections against an
                   undercharged appropriation reducing the check-issue overdraft.
       7.3         Losses of Funds. Used to record any physical losses of cash,
                   negotiable instruments, and uncollected dishonored check
                   amounts.
       7.4         Receivables-Dishonored Checks. Used for any dishonored
                   checks received that are to be retained in DO accountability.
                   Used also for dishonored checks collected or for which relief has
                   been granted that are currently carried in DO accountability.
       9.2         Receivables-Check Overdrafts. Used by incumbent DO to
                   settle the predecessor DO accounts. Compute in the same manner
                   as Line 7.2.
       9.3         Losses of Funds. Used by incumbent DO to settle the
                   predecessor DO accounts. Compute in the same manner as
                   Line 7.3.
       9.4         Other Accountability. Used by incumbent DO to settle the
                   predecessor DO accounts. Compute in the same manner as
                   Line 7.4.




                                      45
46
Appendix H. Glossary
   Accommodation Exchange. The exchange of U.S. Treasury checks or U.S.
   dollar instruments for U.S. dollars (i.e. check-cashing). Also, the exchange of
   U.S. dollars or dollar instruments for foreign currency for the convenience of
   authorized personnel, or, where permitted, the exchange of foreign currencies for
   U.S. dollars or dollar instruments.

   Accountable Individual. As used in this report, the term “accountable
   individual” includes all personnel, whether military or civilian, who are certifying
   officers, accountable officials, and disbursing officers. The term also includes
   deputy disbursing officers, agents, cashiers and other employees who by virtue of
   their employment are responsible for or have custody of government funds.

   Agent (of a Disbursing Officer). An individual who is acting under a formal
   letter of appointment from the disbursing officer. Agents are not authorized to
   sign U.S. Treasury checks. The duties of an agent usually consist of making cash
   payments and collections, performing check-cashing services, and preparation of
   financial documents. Agents may be authorized to sign such other official
   documents attesting to transactions made by the agent as specifically designated
   in the appointment.

   Cashier. A cashier can be a military member or DoD civilian employee
   designated by the disbursing officer to perform duties involving the handling of
   public funds.

   Certifying Officer. An individual designated to attest to the correctness of
   statements, facts, accounts, and amounts appearing on a voucher or other
   documents. A certifying officer is pecuniarily liable for payments in accordance
   with 31 U.S.C. 3528.

   Change Fund Custodian. A change fund custodian operates from an
   appropriated fund sales activity (such as a dining hall, hospital, commissary) and
   is responsible for safeguarding the funds provided. A change fund custodian may
   be held pecuniarily liable for any losses of the change fund.

   Coin. Metallic form of money representing U.S. dollars and foreign currency
   units, and fractional amounts or multiples thereof.

   Collection Agent. A collection agent is an individual who has been designated to
   perform duties relating to the collection of official funds, including funds held as
   safekeeping deposits, at a point other than a disbursing office. The individual
   designated as a collection agent must perform the collection duties under the
   general supervision of and as prescribed by the appointing officer. Responsibility
   for duties and functions should be segregated among receipt of funds,
   recordkeeping, determination of amount owed, and making demands on the
   debtor, so as to minimize opportunities for unauthorized, fraudulent, or otherwise
   irregular acts. Collection agents should not be involved with billing or accounting
   for funds received. Additionally, disbursing office personnel will not be
   designated as collection agents. A collection agent is appointed by the local
   commander.



                                        47
Collections. All acquisitions of U.S. and foreign currencies except those acquired
by the United States through purchase with dollars or accommodation exchange
transactions.

Contingency. As designated by the Chairman, Joint Chiefs of Staff, an
emergency involving military force caused by natural disasters, terrorists,
subversions, or by required military operations. Due to the uncertainty of the
situation, contingencies require plans, rapid response, and special procedures to
ensure the safety and readiness of personnel, installations, and equipment.

Currency. Paper money in the form of U.S. dollars and foreign banknotes.

Deputy Disbursing Officer. An individual appointed by the disbursing officer to
act in the name of and for that disbursing officer to perform any and all acts
relating to the receipt, disbursement, custody, and accounting for public funds.
The disbursing officer making the appointment may restrict the acts a deputy is
authorized to perform. All deputy disbursing officer appointees must be U.S.
citizens.

Disbursing Agent. An agent to the disbursing officer that has not been appointed
as a deputy disbursing officer. Generally, a disbursing agent operates a
permanently located disbursing office of considerable size that is geographically
separated from the disbursing officer's office; however, the use of disbursing
agents is not restricted to geographic separation from the DO.

Disbursing Office. An organization whose principal function consists of the
disbursement, collection and reporting of public funds. It includes both tactical
and nontactical disbursing activities. Each disbursing office will have a
disbursing officer and should have at least one deputy position, which is under the
direct cognizance and control of the disbursing officer. Disbursing offices within
DoD formerly were referred to as Finance and Accounting Offices, Accounting
and Finance Offices, and Finance Offices.

Disbursing Officer (DO). A military member or a civilian employee of a DoD
Component designated to disburse monies and render accounts according to laws
and regulations governing the disbursement of public monies. All DO appointees
must be U.S. citizens.

Disbursing Station Symbol Number (DSSN). A four-digit number assigned to
each disbursing office by the Department of the Treasury. The DSSN is an
identification number that indicates authority to receive and disburse public funds
and issue checks on the United States Treasury.

Exchange-for-Cash Check. A check issued by a disbursing officer to obtain
cash funds for disbursements or in exchange for cash for official or
accommodation purposes.

General Depository. The financial institution designated by the Department of
the Treasury to accept deposits of cash and checks from specifically authorized
disbursing officers (also called Treasury’s General Account Depositories).




                                    48
Illegal, Incorrect, or Improper Payment. An illegal, incorrect, or improper
payment is defined as:
   a) an overpayment of a payee;
   b) two or more payments to a payee for the same entitlement;
   c) a payment to the wrong payee;
   d) a U.S. Treasury check issue overdraft (in some instances);
   e) a negotiation of both the original and a replacement U.S. Treasury check;
   f) any payment based on fraudulent, forged, or altered documents prepared
      or presented by individuals who do not work in the disbursing office; or
   g) a payment made in violation of a regulation.

Imprest Fund. A cash fund of a fixed amount established by an advance of
funds, with or without charge to an appropriation, from a disbursing officer to a
duly appointed cashier, for disbursement as needed in making cash payments for
relatively small purchases.

Imprest Fund Cashier. An individual appointed by the local commander to
make authorized cash payments for materials or services. An imprest fund
cashier is required to maintain custody of public funds and to file periodic
vouchers to account for and replenish the imprest fund. Disbursing personnel are
not eligible for appointment as imprest fund cashiers.

Irregularity in a Disbursing Officer's Account. Denotes any action (or lack
thereof), event, practice, or circumstance that causes an out-of-balance condition
in the financial accountability to the United States of the disbursing officer or
deputies, agents, and cashiers to whom public funds have been entrusted.

Limited Depository. A U.S. or foreign commercial bank designated by the
Treasury Department to receive deposits from disbursing officers for credit to
their official limited depository checking accounts.

Limited Depository Account. A checking account in a foreign currency
maintained in a limited depository by a disbursing officer in his or her name.
Limited depository accounts also may be referred to as operating accounts.

Paying Agent. A military member or DoD civilian employee appointed by the
commander to act as an agent of a disbursing officer. The purpose of a paying
agent is to make specific payments, currency conversions, or check-cashing
transactions from funds temporarily advanced to the agent by the disbursing
officer. Paying agents are individuals whose regular duties do not involve
disbursing functions and who are not located in the disbursing office. They are
appointed to the position of paying agent as a collateral duty and will be under the
exclusive supervision of the disbursing officer in all matters concerning custody
and disposition of funds advanced to them. They will comply with all instructions
and regulations pertaining to their paying agent duties as issued by the disbursing
officer. All payments or currency conversions made by a paying agent are made
for, and in the name of, the disbursing officer making the appointment. Funds
advanced to a paying agent are held at personal risk by the paying agent and must
be accounted for to the disbursing officer immediately upon completion of the
transaction(s) for which advanced.




                                    49
Special Drawing Right. An international reserve asset created by the
International Monetary Fund to supplement the existing reserve assets of its
member countries. The Special Drawing Right is the International Monetary
Fund’s unit of account, and Special Drawing Rights may be used by members in
transactions with the International Monetary Fund, other member countries, and
other authorized holders. Four currencies (the U.S. dollar, the euro, the Japanese
yen, and Pound sterling) serve as the basis for determining both the valuation and
the interest rate of the Special Drawing Right.

SF (Standard Form) 1219, “Statement of Accountability.” Each DoD
disbursing station is required to prepare the Statement of Accountability monthly.
The Statement of Accountability reports information to the Treasury on deposits,
interagency transfers, and checks issued. The Statement of Accountability also
reports net disbursements—the sum of the deposits, interagency transfers, and
checks issued that month.

SF 1220, “Statement of Transactions.” Each DoD disbursing station is required
to prepare the Statement of Transactions monthly. The Statement of Transactions
reports the disbursements shown on the Statement of Accountability by
appropriation. Treasury requires that the net disbursements reported on the
Statement of Transactions agree with the net disbursements reported on the
Statement of Accountability.




                                    50
Office of the Under Secretary of Defense Comments




                                51
52
53
54
55
56
Defense Finance and Accounting Service Comments




                              57
58
59
60
